<html>
<title> - H.R. 2907 AND H.R. 3247</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 2907 AND H.R. 3247

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, October 21, 2003

                               __________

                           Serial No. 108-70

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                ______

89-967              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, October 21, 2003........................     1

Statement of Members:
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement on H.R. 2907..........................     5
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     4
    Renzi, Hon. Rick, a Representative in Congress from the State 
      of Arizona.................................................     1
        Prepared statement on H.R. 2907..........................     3
    Tancredo, Hon. Thomas G., a Representative in Congress from 
      the State of Colorado......................................    32
        Prepared statement on H.R. 3247..........................    33
    Udall, Hon. Mark, a Representative in Congress from the State 
      of Colorado................................................    34
        Rocky Mountain News article submitted for the record.....    35

Statement of Witnesses:
    Dickinson, Hon. Mitch, Mayor, Town of Camp Verde.............     9
        Prepared statement on H.R. 2907..........................    11
    Groseta, Peter Andrew ``Andy,'' Owner, W Dart Ranch, dba, 
      Groseta Ranches, LLC.......................................    13
        Prepared statement on H.R. 2907..........................    16
    Jenkins, David, Director of Conservation and Public Policy, 
      American Canoe Association.................................    41
        Prepared statement on H.R. 3247..........................    43
    Parkinson, Larry R., Deputy Assistant Secretary, Law 
      Enforcement and Security, U.S. Department of the Interior..    36
        Prepared statement on H.R. 3247..........................    37
    Rey, Hon. Mark, Under Secretary, Natural Resources and 
      Environment, U.S. Department of Agriculture................     6
        Prepared statement on H.R. 2907 and H.R. 3247............     7
        Oral statement on H.R. 3247..............................    36
    Roder, Aileen, Program Director, Taxpayers for Common Sense..    17
        Prepared statement on H.R. 2907..........................    19
    Smith, Larry, Executive Director, Americans for Responsible 
      Recreational Access........................................    38
        Prepared statement on H.R. 3247..........................    40

Additional materials supplied:
    U.S. Department of Justice, Letter submitted for the record 
      on H.R. 3247...............................................    55


LEGISLATIVE HEARING ON H.R. 2907, TO PROVIDE FOR A LAND EXCHANGE IN THE 
STATE OF ARIZONA BETWEEN THE SECRETARY OF AGRICULTURE AND YAVAPAI RANCH 
 LIMITED PARTNERSHIP; AND H.R. 3247, TO PROVIDE CONSISTENT ENFORCEMENT 
AUTHORITY TO THE BUREAU OF LAND MANAGEMENT, THE NATIONAL PARK SERVICE, 
  THE UNITED STATES FISH AND WILDLIFE SERVICE, AND THE PROTECTION OF 
 PUBLIC LANDS UNDER THE JURISDICTION OF THESE AGENCIES, TO CLARIFY THE 
PURPOSES FOR WHICH COLLECTED FINES MAY BE USED, AND FOR OTHER PURPOSES.

                              ----------                              


                       Tuesday, October 21, 2003

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 1334, Longworth House Office Building, Hon. Rick Renzi, 
presiding.
    Present: Representatives Renzi, Duncan, Tancredo, Hayworth, 
Flake, Pearce, Inslee, Kildee, Tom Udall of New Mexico, and 
Mark Udall of Colorado.

STATEMENT OF HON. RICK RENZI, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Renzi. Good morning. The Subcommittee on Forests and 
Forest Health will come to order. The Subcommittee is meeting 
today to hear testimony on H.R. 2907, the Northern Arizona 
National Forest Land Exchange Act of 2003, and H.R. 3247, the 
Trail Responsibility and Accountability for the Improvement of 
Lands Act of 2003.
    Under Committee rule 4(g), the Chairman and the Ranking 
Minority Member may make opening statements. If any other 
member has statements, they may be included in the hearing 
record under unanimous consent.
    Members of the Subcommittee, I appreciate the 
Subcommittee's consideration of my bill, H.R. 2907, the 
Northern Arizona National Forest Land Exchange Act of 2003. 
H.R. 2907 facilitates a land exchange in Northern Arizona of 
private land within the Yavapai Ranch for Forest Service land 
in the northern portion of the State.
    Mr. Renzi. I would like to recognize local representatives 
in the First District of Arizona, including the Mayor of Camp 
Verde, Mitch Dickinson, the Mayor of Clarkdale, Mike Bluff, and 
the Mayor of Cottonwood, Ruben Jauregui.
    H.R. 2907 accomplishes several goals in Northern Arizona. 
First, it will preserve the pristine areas within the Yavapai 
Ranch for the wildlife and recreation purposes. Second, H.R. 
2907 provides the City of Flagstaff with the opportunity to 
acquire land to expand and improve Pulliam Airport. H.R. 2907 
will allow the City of Flagstaff to develop a new city park and 
recreational areas and obtain ownership of land near their 
water treatment plant. This is critical to the City of 
Flagstaff's future by providing economic development and 
affordable housing.
    The Northern Arizona National Forest Land Exchange Act will 
also allow the City of Williams to acquire land for its well 
sites, water storage tanks, and wastewater facilities and 
drinking water treatment plants. Until recently, the City of 
Williams relied completely on surface water supplies to service 
the community. However, surface water reservoirs in Williams 
are currently at a minimal 8 percent of capacity. H.R. 2907 
will assist Williams in meeting their water challenges in the 
future, providing new land for well drilling sites.
    In the Verde Valley, this bill provides the Town of Camp 
Verde with a unique opportunity to acquire lands for open space 
to protect their view shed. The Camp Verde Fire District will 
be provided with land adjacent to Interstate 17 for an 
emergency response and urgent care facility for faster 
response. A planned development along I-17 will provide Camp 
Verde with additional tax base and job opportunities.
    A residential development in Clarkdale and Cottonwood will 
diversify the housing market and provide new lands for their 
tax base. I am assured that language in H.R. 2907 ensures that 
water conservation and water use restrictions must be met for 
any future development. In addition, any development must also 
comply with the State of Arizona's surface and groundwater 
laws, as well as local community planning standards.
    Finally, this legislation ensures that six summer youth 
camps, serving between 6,000 and 8,000 children per year, have 
the opportunity to acquire the land and benefit from full 
ownership and management of this land. Included in this 
exchange are YoungLife Lost Canyon Camp, Friendly Pines Camp, 
YMCA Sky-Y Camp, Pine Summit Camp, Temple Beth Israel's Camp 
Charles Pearlstein, and the Roman Catholic Church of Phoenix 
Patterdale Pines Camp.
    In the past few months, I have received many letters and 
phone calls providing input and information on this exchange. I 
have also held several town halls and town meetings in the 
districts to discus many complex issues surrounding this 
exchange. I have visited and toured Yavapai Ranch and the 
exchange parcels and have witnessed firsthand the equity this 
land exchange can bring to the area. Bringing the Yavapai Ranch 
into Federal ownership is in the best interest of the public 
and the general good, and the Forest Service has indicated that 
it would otherwise be unable to afford to acquire these 
parcels.
    H.R. 2907 will benefit the public, the many communities and 
camps in Northern Arizona that will receive opportunities for 
future economic development and the natural beauty of the 
Yavapai Ranch. The hearing on H.R. 2907 today represents 
another step in this legislative process. I appreciate the 
Subcommittee's consideration of the Northern Arizona National 
Forest Land Exchange Act of 2003.
    [The prepared statement of Mr. Renzi follows:]

  Statement of The Honorable Rick Renzi, a Representative in Congress 
                from the State of Arizona, on H.R. 2907

    Good morning, Chairman McInnis and members of the Subcommittee, I 
appreciate the Subcommittee's consideration of my bill, H.R. 2907, the 
Northern Arizona National Forest Land Exchange Act of 2003. H.R. 2907 
facilitates a land exchange in northern Arizona of private land within 
the Yavapai Ranch for Forest Service land in the northern portion of 
the state.
    H.R. 2907 accomplishes several goals in northern Arizona. First, it 
will preserve the pristine areas within Yavapai Ranch for wildlife and 
recreation. Second, H.R. 2907 provides the City of Flagstaff with the 
opportunity to acquire land to expand and improve Pulliam Airport. H.R. 
2907 will allow the City of Flagstaff to develop a new city park and 
recreational areas and obtain ownership of land near their water 
treatment plant. This is critical to the City of Flagstaff's future by 
providing economic development and affordable housing.
    The Northern Arizona National Forest Land Exchange Act will also 
allow the City of Williams to acquire land for its well sites, water 
storage tanks and wastewater facility and drinking water treatment 
plants. Until recently, the City of Williams relied completely on 
surface water supplies to service the community, however, surface water 
reservoirs in Williams are currently at a minimal eight percent of 
capacity. H.R. 2907 will assist Williams in meeting their water 
challenges in the future by providing new land for well drilling sites.
    In the Verde Valley, this bill provides the Town of Camp Verde with 
a unique opportunity to acquire land for open space to protect their 
view shed. The Camp Verde Fire District will be provided with land 
adjacent to Interstate 17 for an emergency response and urgent care 
facility for faster response. A planned development along Interstate 17 
will provide Camp Verde with additional tax base and job opportunities.
    A residential development in Clarkdale and Cottonwood will 
diversify the housing market and provide new lands to their tax base. I 
have ensured that language in H.R. 2907 ensures that water conservation 
and water use restrictions must be met for any future development. In 
addition, any development must also comply with the State of Arizona's 
surface and ground water laws, as well as local community planning 
standards.
    Finally, this legislation ensures that six summer youth camps, 
serving between six and eight thousand children a year, have the 
opportunity to acquire the land and benefit from full ownership and 
management of this land. Included in this exchange are YoungLife Lost 
Canyon Camp, Friendly Pines Camp, YMCA Sky-Y Camp, Pine Summit Camp, 
Temple Beth Israel's Camp Charles Pearlstein and the Roman Catholic 
Church of Phoenix Patterdale Pines Camp.
    In the past few months, I have received many letters and phone 
calls providing input to this exchange. I have also held several town 
halls and town meetings in the district to discuss the many complex 
issues surrounding this exchange. I have visited and toured the Yavapai 
Ranch and the exchange parcels and have witnessed first hand the equity 
of this land exchange. Bringing the Yavapai Ranch into federal 
ownership is in the best interest of the public, and the Forest Service 
has indicated that it would otherwise be unable to afford to acquire 
these parcels.
    H.R. 2907 will benefit the public, the many communities and camps 
in northern Arizona that will receive opportunities for future economic 
development, and the natural beauty of the Yavapai Ranch. The hearing 
on H.R. 2907 today represents another step in the legislative process. 
I appreciate the Subcommittee's consideration of the Northern Arizona 
National Forest Land Exchange Act of 2003.
                                 ______
                                 
    Mr. Renzi. At this time, I would like to recognize the 
Ranking Member, Mr. Inslee, for any statements that he might 
have.

STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF WASHINGTON

    Mr. Inslee. Thank you. Just briefly, I look forward to 
this. I think there are a lot of interesting issues. I look 
forward to a discussion of this water conservation movement 
issues, its enforceability in particular, and I am sure we will 
have a lot of other good questions. Thank you, Mr. Chair.
    Mr. Renzi. I thank the Ranking Member.
    I would like to invite the first panel to join us at the 
table, please, and I would like to introduce our witnesses 
today.
    As the gentlemen are making their way to the table, I would 
like to recognize the gentleman who originally helped to author 
this bill during the 107th Congress, the Congressman from the 
Sixth District of Arizona--
    Mr. Hayworth. Or what used to be the Sixth District, now 
the Fifth with the realignment.
    Mr. Renzi. Now the fifth.
    Mr. Hayworth. Yes, sir.

 STATEMENT OF HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Hayworth. Mr. Chairman, it is good to see you in the 
chair today and I am grateful for the opportunity to talk about 
this important legislation. Let me commend you, Mr. Renzi, for 
all your hard work in bringing this before the Forest 
Subcommittee. I would also like to join the Chairman in 
welcoming my friends from Arizona who join us in the Committee 
Room today and thank them for making the trip back to 
Washington to participate in this hearing.
    Although you may not agree on every jot and tittle of the 
legislation before us, I think it is safe to say that we all 
agree that we have a common goal. I look forward to working 
with each of you toward that goal, which is to ensure that the 
environment, ecosystem, watershed, and forested lands of 
Northern Arizona are protected and preserved.
    As the Chairman mentioned, H.R. 2907 is very similar to a 
bill I sponsored in the last Congress, together with our friend 
the late Bob Stump. The concept of a land exchange to 
consolidate the Yavapai Ranch lands just made sense. Through 
this land exchange, the Federal Government will receive 
pristine forest lands that truly belong under the stewardship 
of the U.S. Forest Service to preserve for future generations.
    This exchange was originally initiated by the Forest 
Service to consolidate a massive checkerboard parcel of land 
and to protect the Juniper Mountains forested area from future 
development. Watershed management, wildlife habitat, and 
outdoor recreation in the consolidated land parcel will be 
preserved through this action.
    Additionally, many of the land parcels the Forest Service 
will trade to accomplish these goals are eagerly sought by the 
local communities for a variety of worthwhile civic purposes, 
including expansion of airports, parks, and other municipal 
facilities. As the Chairman mentioned, six summer camps that 
currently lease lands from the Forest Service would be able to 
acquire their leased areas.
    There have been numerous meetings between Forest Service 
personnel and various communities and citizen groups. As a 
result, the bill has been endorsed by the city councils of 
Flagstaff, Williams, Camp Verde, Cottonwood, Clarkdale, as well 
as the Yavapai County Board of Supervisors, the Salt River 
Project, the Arizona Game and Fish Department, the Flagstaff 
Chamber of Commerce, the Greater Flagstaff Economic Council, 
the Williams Chamber of Commerce, the Camp Verde Chamber, the 
Cottonwood Chamber, the Grand Canyon Trust, the Sedona Verde 
Valley Realtors, the Wildlife Conservation Council, the Arizona 
Antelope Foundation, the Arizona Mule Deer Association, the 
Central Arizona Land Trust, and the Arizona Republic Newspaper 
editorial board.
    This bill makes good sense for our forest and for the 
people of Arizona. The savings for the Federal Government and 
obviously for U.S. taxpayers associated with this land exchange 
are significant, but much more importantly, this exchange will 
ensure that one of the last largest pristine forested parcels 
in Arizona will pass out of private hands and be protected from 
development indefinitely.
    We have several questions for our witnesses today, and 
obviously welcome them and look forward to their testimony.
    Again, Mr. Chairman, I commend you for your hard work on 
this and am glad to be a part of this hearing today. Thank you, 
sir. I yield back my time.
    Mr. Renzi. Thank you, J.D.
    [The prepared statement of Mr. Hayworth follows:]

Statement of The Honorable J.D. Hayworth, a Representative in Congress 
                from the State of Arizona, on H.R. 2907

    Mr. Chairman, I am grateful for the opportunity to discuss this 
important legislation today, and commend the gentleman from Arizona, 
Mr. Renzi, for his hard work in bringing this before the Forests 
Subcommittee. I also want to welcome my friends from Arizona who join 
us in the Committee Room today and thank them for coming to Washington 
to participate in this hearing. All of you may not agree on every jot 
and tittle of the legislation before us, but I think it is fair to say 
that we all agree that we have a common goal. I look forward to working 
with each of you toward that goal, which is to ensure that the 
environment, ecosystem, watershed, and forested lands of Northern 
Arizona are protected and preserved.
    As you know, H.R. 2907 is very similar to a bill I sponsored in the 
last Congress, together with our friend, the late Rep. Bob Stump. The 
concept of a land exchange to consolidate the Yavapai Ranch lands just 
makes sense. Through this land exchange, the federal government will 
receive pristine forest lands that truly belong under the stewardship 
of the U.S. Forest Service to preserve for future generations.
    This exchange was originally initiated by the Forest Service to 
consolidate a massive ``checkerboard'' parcel of land, and to protect 
the Juniper Mountains' forested area from future development. Watershed 
management, wildlife habitat and outdoor recreation in the consolidated 
land parcel will be preserved through this action. Additionally, many 
of the land parcels the Forest Service will trade to accomplish these 
goals are eagerly sought by local communities for a variety of 
worthwhile civic purposes, including expansion of airports, parks and 
other municipal facilities. Also, six summer camps that currently lease 
lands from the Forest Service would acquire their leased areas.
    There have been numerous meetings between Forest Service personnel 
and various communities and citizen groups. As a result, this bill has 
been endorsed by the City Councils of Flagstaff, Williams, Camp Verde, 
Cottonwood, Clarkdale, as well as the Yavapai County Board of 
Supervisors, Salt River Project, Arizona Game and Fish Department, 
Flagstaff Chamber of Commerce, Greater Flagstaff Economic Council, 
Williams Chamber of Commerce, Camp Verde Chamber of Commerce, 
Cottonwood Chamber of Commerce, Grand Canyon Trust, Sedona-Verde Valley 
Realtors, Wildlife Conservation Council, Arizona Antelope Foundation, 
Arizona Mule Deer Association, Central Arizona Land Trust, and the 
Arizona Republic, among others.
    This bill makes good common sense for our forests and for the 
people of Arizona. The savings for the federal government (and, 
therefore, the U.S. taxpayer), associated with this land exchange are 
significant. But much more importantly, the exchange will ensure that 
one of the last, largest pristine forested parcels in Arizona will pass 
out of private hands and be protected from development indefinitely.
    I have several questions for our witnesses today, and look forward 
to their testimony. And again, I commend Congressman Renzi for his hard 
work on this important legislation and thank him for the chance to 
partner with him on this bill.
                                 ______
                                 
    Mr. Renzi. At this time, I would like to introduce our 
witnesses on H.R. 2907. On panel one, we have the Honorable 
Mark Rey, Under Secretary of Natural Resources and Environment 
with the U.S. Department of Agriculture; the Honorable Mitch 
Dickinson, Mayor of the Town of Camp Verde; Mr. Peter Andrew 
Groseta, Owner of Groseta Ranches, LLC; and Ms. Aileen Roder, 
Program Director, Taxpayers for Common Sense. Welcome and good 
morning to you all. I am thankful.
    We begin with a little reminder that I would ask that you 
limit your statements to 5 minutes. Mr. Rey, I would now 
recognize you for your 5-minute statement.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
          ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Congressman Renzi, and thank you for 
the opportunity to present the Department of Agriculture's 
views on H.R. 2907, the Northern Arizona National Forest Land 
Exchange Act of 2003, and H.R. 3247, the Trail Responsibility 
and Accountability for the Improvement of Lands Act of 2003. I 
will limit my remarks on this panel to the first of those two 
bills and summarize accordingly.
    The Department supports the land exchange embodied within 
H.R. 2907 and supports the goal of H.R. 3247. We would like to 
work with the Subcommittee and the sponsors on some 
modifications that we believe would improve both bills.
    With regard to H.R. 2907, the Department supports the land 
exchange between Yavapai Ranch Limited Partnership, the 
Northern Yavapai LLC, and the Forest Service, which would 
consolidate the largest remaining checkerboard ownership in 
Arizona. We do, however, have some concerns related to the 
partial deletion order, the enforcement provisions associated 
with the conservation easements, the cost of the appraisal, and 
compensation for persons holding grazing permits within the 
parcels identified for transfer. Both of those, or all of those 
issues, we believe, can be resolved by technical corrections to 
the bill and we would like to work with the Subcommittee on 
these kinds of corrections.
    This exchange will offer substantial benefits to all of the 
parties involved. The forest units involved would benefit from 
simplified boundary management, reduced administrative costs, 
and the acquisition of lands adjacent to the Juniper Mesa 
Wilderness, which has significant forest, wildlife, and 
recreation values. Consolidating 110 square miles into solid 
Forest Service ownership is a significant gain from both 
administrative and resource standpoints. Savings in just land 
line locations alone would amount to $1 million. So the bill 
has significant benefits for all of the parties involved.
    The Department supports enactment of the legislation and we 
would be happy to work with the Committee to that end. Thank 
you very much.
    Mr. Renzi. Thank you, Mr. Rey.
    [The prepared statement of Mr. Rey follows:]

     Statement of Mark Rey, Under Secretary, Natural Resources and 
Environment, U.S. Department of Agriculture, on H.R. 2907 and H.R. 3247

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to present the Department's views on 
H.R. 2907, the Northern Arizona National Forest Land Exchange Act of 
2003, and H.R. 3247, the Trail Responsibility and Accountability for 
the Improvement of Lands Act (TRAIL Act) of 2003. The Department 
supports the concept of the land exchange embodied within H.R. 2907, 
and supports the goal of H.R. 3247, but would like to work with the 
Subcommittee and sponsors on some modifications that we believe would 
improve the bills.
H.R. 2907--the Northern Arizona National Forest Land Exchange Act of 
        2003
    The Department supports the concept of a land exchange between 
Yavapai Ranch Limited Partnership, the Northern Yavapai, L.L.C. and the 
Forest Service, which would consolidate the largest remaining 
checkerboard ownership in Arizona. We do however, have some concerns 
related to the parcel deletion order, enforcement provisions associated 
with the conservation easements, the costs of the appraisal, and 
compensation for persons holding grazing permits within the parcels 
identified for transfer. We would like to work with the Subcommittee on 
some clarifications to this bill.
    H.R. 2907 would authorize the exchange of approximately 55,000 
acres of Federal and non-Federal land in the State of Arizona between 
the Secretary of Agriculture and Yavapai Ranch Limited Partnership. 
Pass-through provisions allows for some of the Federal land acquired by 
Yavapai Ranch Limited Partnership and the Northern Yavapai L.L.C. to be 
reconveyed to the cities of Flagstaff, Williams, and Camp Verde, 
Arizona, and to summer organizational camps identified in the bill.
    This exchange can offer substantial benefits to all parties 
involved. The Forest units involved would benefit from simplified 
boundary management, reduced administrative costs, and the acquisition 
of lands adjacent to the Juniper Mesa Wilderness, which has significant 
forest, wildlife, and recreation values. Consolidating 110 square miles 
into solid Forest Service ownership is a significant gain from both 
administrative and resource standpoints.
    The Department has suggestions to improve four sections in the 
bill. First, Section 4(a)(3)(B) establishes conservation easements on 
the Camp Verde and Cottonwood parcels, which are located on the 
Prescott National Forest. H.R. 2907 needs greater detail concerning: 
(1) how a memorandum of understanding with the State of Arizona will be 
developed to enforce the conservation easements; (2) when the 
memorandum will take effect and for how long; and (3) how the Federal 
government will be removed from liability. We would be happy to work 
with the Subcommittee and the bill sponsors to provide additional 
details.
    In addition, the Department is concerned that the valuation of the 
Federal parcels due to the conservation easements could result in the 
transfer of far more Federal land to the owners of the Yavapai Ranch 
and its related limited liability corporation than would otherwise 
occur if the market value of the Federal estate were valued without 
this encumbrance. The Federal government will hold these conservation 
easements in perpetuity, thus reserving the value.
    Our second concern involves Section 5(c)(2), which describes the 
order for deleting Federal parcels. If the final appraised value of the 
Federal land exceeds the final appraised value of the non-Federal land, 
the intended deletion order could result in undesirable boundaries.
    Third, Section 6(d) states the costs of implementing the land 
exchange will be borne by the Secretary of Agriculture (for the Federal 
land) and Yavapai Ranch (for the non-Federal land). The costs of 
implementing the exchange should be borne equally by both parties since 
both parties are benefitting from this land exchange; specifying each 
type of cost is not needed in the bill. Also, the Department believes 
reimbursement to Yavapai Ranch for using independent third party 
contractors should only be done where the Forest Service has agreed to 
the contractor, scope of work, cost estimate, and formally accepts the 
work performed.
    Fourth, Section 9 states that persons holding grazing permits for 
land transferred into private ownership shall be compensated for any 
loss of grazing associated with the transfer. The Department believes 
this section should be deleted. Grazing on National Forest System land 
has been determined by the courts to be a privilege, not a right. The 
Department does not believe this grazing privilege should be 
compensated since Forest Service regulations allow for a grazing permit 
to be canceled, modified, or suspended, in whole or in part, where 
lands grazed under the permit are to be devoted to another public 
purpose including disposal. In these cases, except in an emergency, no 
permit shall be cancelled without two years' prior notification (36 CFR 
222.4).
    However, the Federal Land Policy and Management Act of 1976 
provides compensation for permittees' interest in authorized permanent 
improvements. Forest Service regulations at 37 CFR 222.6 states, 
``Whenever a term permit for grazing livestock on National Forest land 
in the 16 contiguous western States is canceled in whole or in part to 
devote the lands covered by the permit to another public purpose, 
including disposal, the permittee shall receive from the United States 
a reasonable compensation for the adjusted value of his interest in 
authorized permanent improvements placed or constructed by him on the 
lands covered by the canceled permit. The adjusted value is to be 
determined by the Chief, Forest Service. Compensation received shall 
not exceed the fair market value of the terminated portion of the 
permittee's interest therein.'' Any compensation is based on 
amortization over the life of the permanent improvement, thus the 
Department would need an amortization schedule from the permittee for 
all permanent improvements to be claimed, including receipts of 
purchase, labor costs, or any other costs. The Department believes 
these are the only costs where compensation is appropriate.

H.R. 3247--the Trail Responsibility and Accountability for the 
        Improvement of Lands Act (TRAIL Act) of 2003

    The Department supports the goals of H.R. 3247, but would like to 
work with the Subcommittee on some modifications that we believe would 
improve the bill. We commend Mr. Tancredo and the cosponsors of H.R. 
3247 for their efforts through this bill to raise the public's 
awareness of the laws pertaining to Federal lands to protect the 
public's natural resources, and the consequences of violating them. We 
also thank the Subcommittee for seeking innovative approaches for 
providing resources to the Department to rehabilitate National Forest 
System lands once a criminal violation has occurred.
    H.R. 3247 makes consistent the penalties for violating regulations 
of the National Park Service, Bureau of Land Management, and the Fish 
and Wildlife Service in the Department of the Interior, and the Forest 
Service in the Department of Agriculture. We support such a concept as 
we work closely with our fellow land management agencies in enforcement 
activities, including local cross-designations of authority. Consistent 
enforcement authority would make this cooperation much easier, aid the 
public in understanding regulations and penalties, and assist 
prosecutors and courts that must handle cases arising from different 
federal jurisdictions. The bill would change the penalty for violation 
of our regulations from one level of offense to two levels. We will 
work with the Department of Justice and the federal courts to best 
ensure advantages of consistent criminal penalties are fulfilled.
    The Department has been working with the Department of Justice, the 
Department of the Interior, and the Subcommittee on similar bills 
dealing with enforcement and violations. We are willing to offer 
suggested changes to H.R. 3247, which we believe will strengthen the 
bill while still allowing the flexibility for enforcement. These 
suggested changes to the Forest Service Organic Act deal with fines.
    The Department would like to work with the Subcommittee, the 
Department of the Interior, and the Department of Justice to clarify 
Section 2 of the bill dealing with Class A and Class B misdemeanors. 
Creating these separate offenses provides both the land managers and 
the Department of Justice with much greater flexibility to deal with 
criminal violations of land management regulations. The Forest Service 
has authority to issue Class B misdemeanors for a violation of agency 
regulations as stated in the Forest Service Organic Act of 1897. H.R. 
3247 would create a new Class A misdemeanor for certain offenses 
committed on National Forest System lands by any person who knowingly 
and willfully violates any such rule or regulation. The bill adopts the 
most onerous requirement of ``knowingly and willfully,'' which 
generally requires greater proof of wrongdoing. Thus, in a prosecution 
involving the ``knowing and willful'' standard, the government must 
prove that the defendant specifically intended to violate the law, a 
difficult standard to meet. Proof that an offense was committed 
``knowingly'' merely requires proof of the facts that constitute the 
offense. This means that in a criminal prosecution involving the 
``knowing'' standard, the government must only prove that the defendant 
was aware of his acts, performed them intentionally, and did not act by 
mistake or accident.
    In addition, Section 3 of the bill needs to be clarified concerning 
use of collected fines. H.R. 3247 identifies how collected fines will 
be used by providing authority to the Secretary to use all fines, 
including collaterals, collected as a result of a violation of Forest 
Service regulations to cover the cost to the United States of any 
improvement, protection, or rehabilitation work on National Forest 
System lands rendered necessary by the action which led to the fines. 
Congress has previously approved the use of fines by other Departments 
in other critical environmental legislation, including the Endangered 
Species Act of 1973 and the Migratory Bird Treaty Act of 1918. H.R. 
3247 also would establish an innovative and effective means of putting 
the penalties paid by violators of Federal regulations to use to cover 
some of the costs of damage caused by violations. The bill also would 
authorize the use of moneys received from fines, forfeitures, 
judgments, settlements, and compromises to be used for prevention and 
education programs to help prevent future violations and losses.
    To effectuate fully the authority provided by H.R. 3247 to retain 
and spend fines and collaterals collected for criminal violations of 
Forest Service regulations, the Department recommends that Paragraph 
(A), as added by Section 3(d) of the bill governing the use of moneys 
collected by the Forest Service be amended by expanding the use of such 
moneys to cover the costs of repair and replacement of other government 
property damaged by the action that led to the fine, forfeiture, 
judgment, compromise, or settlement.
    We appreciate the interest of the sponsor and the Subcommittee in 
addressing violations of law on National Forest System lands and their 
penalties, and your willingness to work with us to address the many law 
enforcement challenges we face.
    This concludes my statement. I would be pleased to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Renzi. Mitch, it is good to have you here this morning.
    Mr. Dickinson. Thank you, sir. I am happy to be here.
    Mr. Renzi. Thank you for coming all the way to Washington. 
I am interested to hear your statement. Please begin.

   STATEMENT OF MITCH DICKINSON, MAYOR, TOWN OF CAMP VERDE, 
  ARIZONA; ACCOMPANIED BY MICHAEL R. BLUFF, MAYOR, CLARKDALE, 
    ARIZONA; AND RUBEN JAUREGUI, MAYOR, COTTONWOOD, ARIZONA

    Mr. Dickinson. My name is Mitch Dickinson and I am the 
Mayor of the Town of Camp Verde. I am also a sixth generation 
Camp Verde native and I believe I have a strong understanding 
of the issues important to Northern Arizona.
    I appear before you today as a spokesperson for the towns 
of Camp Verde, Cottonwood, Clarkdale, Flagstaff, Williams, 
Prescott, Chino Valley, and Prescott Valley, all of whom 
strongly endorse this land exchange. Four of these communities, 
including my hometown, will receive lands via this exchange 
that are very important in our efforts to plan for and 
accommodate future growth and economic development in a 
challenging rural area while preserving and protecting open 
space, the Verde River, and the Ponderosa Pine Forest. We were 
disappointed last year when the bill was not passed and we are 
here today to encourage you and support passage this session.
    The Forest Service and Yavapai Ranch have worked with the 
local communities for more than 5 years now and I would 
emphasize that we have an extraordinary consensus in Northern 
Arizona about this trade. Specifically, this land exchange has 
the strong support of every single city or town that has land 
involved in the exchange and every town that has land abutting 
the exchange. It also has the support of the numerous 
organizations that were mentioned previously. There could not 
possibly be a broader base of support for this bill.
    I would like to briefly describe why our communities are so 
interested in seeing this exchange. I will begin with 
Flagstaff. As was mentioned earlier, Flagstaff needs room to 
expand their airport. They need more room for runways to bring 
in regional jets that will help accommodate business and 
tourist travelers to the economy of all of Northern Arizona. 
They also need to acquire Forest Service land on which its 
water treatment plant is located, and this would help to meet 
the Forest Service goal that has been stated publicly in my 
hometown, that the Forest Service would like to get out of the 
land leasing business.
    Turning to Williams, the problems with water there were 
mentioned. Last year, their water capacity reservoirs were down 
to 4 percent. This year, they are up to 8 percent. Out of all 
of the communities, they are probably the most anxious about 
its passage. They need additional lands to develop wells for 
proper water resources for their community. When water levels 
get this low, there is also a problem with water quality and 
water filtration, so it really is a public health issue to 
Williams.
    The next communities involved in the exchange are 
Cottonwood and Clarkdale. Clarkdale Mayor Mike Bluff and 
Cottonwood Mayor Ruben Jauregui are here with me today to 
support this bill. Both communities need this land exchange to 
accommodate their planned future growth and to improve the 
regional mix of housing available to its residents and to 
increase needed tax revenues while also maintaining open space 
along the foothills. These lands would give them the ability to 
make those smart growth planning decisions.
    Mayor Bluff has corrected stated in letters to Senators 
McCain and Kyl that this trade will save water. The water 
conservation easements that had been agreed to are 
unprecedented in Arizona. This legislation will require 
conservation methods that will be an example to future 
development in Arizona.
    Now, I will turn to my own Town of Camp Verde, where our 
town council strongly favors this land exchange. In the 
election held last spring, this issue was the most prominent 
and the pro-exchange candidates ran strongly on this issue for 
the growth and planning of our community and they were elected 
overwhelmingly. That was an accurate indication of how the 
people of Camp Verde think on this issue.
    Camp Verde understands that this exchange will provide us 
the opportunity for highway frontage land to build a commercial 
tax base that is currently Forest Service land. It will also 
provide land to our fire department and hazmat and emergency 
teams to have a response facility that is essential to their 
ability to handle emergencies along the Interstate 17 and 
Highway 260 corridors in a timely manner.
    We must build a commercial tax base in order to have 
sufficient revenue stream to provide basic services to our 
residents. Business wants to be located near a highway that 
passes 11 million vehicles a year and brings tourist dollars 
with it that will help to make these developments be 
successful. The Forest Service owns the land along the highway. 
This land is arid, low-lying scrub-brush that is not very 
scenic by Verde Valley standards. It is, however, ideal for 
commercial development.
    Right now, you cannot buy a pair of shoes in Camp Verde. 
Our residents are forced to drive 15 miles or more to 
neighboring towns to do most of their shopping, and that is an 
inefficient circumstance in an ever-growing area. This trade 
will work to help development occur where it belongs, along the 
highway, well away from the riparian belts of the Verde River 
and the low-lying valley.
    I am aware that some have questioned the enforceability of 
the water conservation easements in the legislation. Arizona 
statutes authorize those easements and I can assure you that 
the towns of Camp Verde, Cottonwood, and Clarkdale are 
concerned about water and that we are ready, willing, and able 
to monitor and enforce them.
    We think the exchange is a win-all for Northern Arizona for 
future jobs, smart economic growth, and for protection and 
preservation of open space. We think it is fair to all the 
parties, including the cities and towns, Yavapai Ranch, and the 
Forest Service, and for all of these reasons, we ask you to 
promptly pass this bill. I would like to say that there are 
several letters of support that have been submitted and I would 
ask that they be included in the record.
    This concludes my statement. Mayor Jauregui, Mayor Bluff, 
and myself are here to answer any questions you may have.
    Mr. Renzi. Mitch, thank you for your leadership on this and 
your comments.
    [The prepared statement of Mr. Dickinson follows:]

          Statement of The Honorable Mitch Dickinson, Mayor, 
               Town of Camp Verde, Arizona, on H.R. 2907

    Mr. Chairman and Members of the Subcommittee:
    My name is Mitch Dickinson, and I am the Mayor of the Town of Camp 
Verde, Arizona. I appear before you today on behalf of the mayors of 
Camp Verde, Chino Valley, Clarkdale, Cottonwood, Flagstaff, Prescott, 
Prescott Valley and Williams, all of whom strongly endorse the land 
exchange proposals of H.R. 2907.
    Four of those communities, including my home town of Camp Verde, 
will receive lands via this exchange that are very important in order 
to accommodate future planned growth and economic development, provide 
critical new municipal services, and preserve and protect open space 
and the Verde River.
    Mr. Chairman, our communities need these lands now, before it is 
too late. This land exchange has been the most discussed in the history 
of Arizona. We were extremely disappointed when Congress adjourned last 
year without taking final action on the exchange legislation, even 
though the House passed it unanimously. Thus, we are asking that H.R. 
2907 be passed by the Congress this fall.
    As you have already heard, the Forest Service has been working with 
the Yavapai Ranch Partnership and our city and town governments to put 
this land exchange together for more than five years now. I would 
emphasize that we have developed an extraordinary consensus about it. 
Specifically, this land exchange has the strong support of:
    <bullet>  Every single City and Town that has land involved in the 
exchange or land which abuts the exchange;
    <bullet>  The Coconino County Board of Supervisors and numerous 
elected officials;
    <bullet>  Six summer camps for children which will receive land via 
the exchange--land which is needed to avoid future management conflicts 
with the Forest Service;
    <bullet>  The Arizona Game and Fish Department;
    <bullet>  The Navajo Nation, and Hopi and White Mountain Apache 
Tribes;
    <bullet>  The Arizona Republic, our state's largest newspaper, 
along with Flagstaff's Arizona Daily Sun, Williams' Grand Canyon News 
and the Verde Independent;
    <bullet>  Numerous environmental, conservation and sportsmen's 
groups, including the Central Arizona Land Trust and the 35 affiliated 
groups of the Wildlife Conservation Council; and
    <bullet>  Numerous local Chambers of Commerce, Economic Development 
Organizations, unions and other civic and community organizations.
    Mr. Chairman, there could not possibly be a broader base of support 
for H.R. 2907 than what exists today.
    My official role here today is as the spokesperson for the cities 
of Northern Arizona, and so, with your indulgence, Mr. Chairman, I 
would like to briefly describe why the communities of Flagstaff, 
Clarkdale, Williams, and my own Town of Camp Verde are so interested in 
seeing this exchange completed at the earliest possible date.
    I will begin with Flagstaff. As Congressmen Renzi and Hayworth are 
so acutely aware, the City of Flagstaff desperately needs to retain and 
improve commercial airline service for its business and tourist 
travelers. By 2006, Flagstaff's air carrier will have changed its fleet 
to regional jets that need a longer runway to land at and take off from 
Flagstaff's Pulliam Airport. To do that, Flagstaff will need to 
lengthen its runway. This exchange will help facilitate Flagstaff's 
efforts to do exactly that. Land around the airport that is not 
acquired by Flagstaff will become available for future business park or 
light industrial development that will diversify the region's 
employment base. Other land may be used for affordable housing and new 
municipal parks. Flagstaff would also acquire the Forest Service land 
on which its water treatment plant is located. For all these reasons, 
the land exchange is vital for Flagstaff's citizens and northern 
Arizona's economy. Flagstaff and the Forest Service agree it makes 
sense for Flagstaff to acquire the lion's share of the 1500-acre 
Federal parcel identified in H.R. 2907.
    Turning to the City of Williams, some 30 miles to the west of 
Flagstaff on Historic Route 66, the situation urgently requires passage 
of this legislation. Williams faces an absolute water crisis. Last 
year, its water reservoirs were depleted to only 4 percent of storage 
capacity--I repeat--4 percent of capacity--by the ongoing drought. This 
year, its reservoirs have ``recovered,'' if you can call it a recovery, 
to 8% of capacity. As Dennis Wells, who is the Williams City Manager, 
pointed out in last month's testimony to the Senate, when water levels 
are that low, it not only jeopardizes Williams' ability to provide even 
basic water services, but also triggers water quality and filtration 
problems. For this reason, Williams is extremely anxious to see 
immediate passage of H.R. 2907 so it can acquire from the Forest 
Service sites to drill new water wells to provide additional drinking 
water. Williams will then be able to implement its comprehensive water 
and wastewater program, which includes improvements to its water 
filtration plant and storage tanks, and the wastewater treatment 
facility. The severe drought in Arizona is ongoing, and may well be the 
worst drought in the past 100 years, so it is critical that the City of 
Williams acquire the new well sites at the earliest possible date.
    In addition, Williams is one of the main gateways to Grand Canyon 
National Park, and needs to improve its airport. The public golf 
course, municipal park, water filtration and wastewater treatments 
plants are all located wholly or partially on National Forest land. 
Williams wants to acquire these lands, and the Forest Service wants to 
exchange them, so Williams can own the land on which these municipal 
facilities are located. The Yavapai Ranch land exchange would enable 
this to happen.
    The next communities with lands involved in the exchange are the 
Town of Clarkdale and the City of Cottonwood, both of which are located 
some 20 miles northwest of Camp Verde. Clarkdale Mayor Mike Bluff and 
Cottonwood Mayor Ruben Jauregui are here with me today to support H.R. 
2907. Clarkdale has already annexed the land adjacent to its 
boundaries. Both communities need this land to accommodate future 
planned growth, to improve the regional mix of housing available to its 
residents, and to add needed tax revenues.
    In addition, as Mayor Bluff has stated in previous letters to 
Senators McCain and Kyl, this trade saves water. The water conservation 
easements that have been agreed to are unprecedented in the Verde 
Valley. This legislation will require conservation methods to be put in 
place and we can use these as an example for future development. It is 
also important to note that many of our communities are landlocked by 
Forest and other public lands. Because additional land is not 
available, land prices have escalated. This additional land will help 
the market and make it easier for young families to reach the American 
dream of home ownership.
    Finally, Mr. Chairman, I turn to my own Town of Camp Verde, where 
our Town Council strongly favors this land exchange. Indeed, in the 
election held in our town last spring, approval of the Yavapai Ranch 
land exchange was the single most important issue on the voters' minds. 
In that election, pro-exchange candidates were all elected by a 70% to 
30% margin. That gives you an indication of how our community feels 
about this issue.
    Mr. Chairman, Camp Verde voters understand that this exchange 
offers them a commercial tax base to fund needed municipal services. 
Camp Verde and the local Fire District need land for an emergency 
response facility with fire, hazmat and medical services that are 
essential for a rapid response to emergencies along rural stretches of 
Interstate I-17.
    We also need to expand our regional commercial and residential tax 
base, which includes a regional shopping center. Right now, Camp Verde 
residents drive 15-20 miles to Cottonwood to do most of their 
shopping--that is not very efficient in terms of traffic congestion and 
pollution, nor does it enhance our residents' quality of life. Although 
there is private land in Camp Verde that could accommodate future 
growth, much of it is located along the beautiful Verde River or on the 
Verde River's floodplain.
    So our choice is relatively clear: either we have more commercial 
development along the River, which our residents would like to see 
preserved, or we can locate it on the Forest Service land, west of 
Interstate 17. This tract is arid and not very scenic. It is located 
upslope and away from the Verde River, and can be developed without any 
visual or other impacts on the River's riparian habitat.
    I also have been told that a member of Arizona's Congressional 
staff has questioned the enforceability of the water conservation 
easements. Arizona's statutes authorize those easements, and the Town 
of Camp Verde is ready, willing and able to enforce them.
    We think the proposed exchange is a win for our Town, for future 
jobs and growth, and for the protection and preservation of our open 
space and the Verde River riparian lands which make our community so 
beautiful. I also would like to introduce letters of support from our 
local firefighters union, from mayors, citizens and business, and an 
editorial from our local newspaper, the Verde Independent, which was 
published just last week on October 8. That editorial urges you to pass 
this bill.
    In summary, Mr. Chairman, you can see why the elected officials 
from so many towns and cities in north central and northern Arizona 
think H.R. 2907 is a great piece of legislation, and why our four towns 
in particular need it to be enacted as soon as humanly possible. We 
think that H.R.2907 is fair to all parties, including our cities and 
towns, Yavapai Ranch and the Forest Service. For all these reasons, we 
ask you to promptly pass H.R. 2907 this fall.
    That concludes my testimony. Mayor Bluff, Mayor Jauregui or I would 
be happy to answer any questions the Subcommittee might have. Thank 
you.
                                 ______
                                 
    Mr. Renzi. Andy, good morning. Good to see you.

   STATEMENT OF PETER ANDREW ``ANDY'' GROSETA, OWNER, W DART 
     RANCH, DBA, GROSETA RANCHES, LLC, COTTONWOOD, ARIZONA

    Mr. Groseta. Good morning, Mr. Chairman. Mr. Chairman and 
members of the Subcommittee, my name is Peter Andrew Groseta 
and I am a third generation cattle rancher from the Verde 
Valley in North Central Arizona. My family came to the Verde 
Valley at the turn of the last century to work in the copper 
mines in Jerome, Arizona. In 1922, my father's family moved to 
a ranch in Middle Verde, and in 1936 to Cottonwood, where our 
ranch headquarters are today.
    We are a family run ranching operation. My father passed 
away in May of 2000. My wife, Mary Beth, and I have raised 
three children, one son and two daughters, who are all enrolled 
at the University of Arizona, majoring in agriculture. Our son 
would like to come back to the ranch after he receives his 
degree and operate the ranch.
    I am here today representing my family's ranch, which will 
be adversely impacted if the proposed Yavapai Ranch land 
exchange is passed by Congress, unless Groseta Ranch is fully 
compensated for the real losses it will suffer as a result of 
the exchange. If this exchange is passed by Congress, it will 
cause a substantial adverse financial loss for my family.
    Despite what some might say, my family's loss will be very 
real. The exchange will constitute a taking in the truest sense 
of the word. The marketplace and the Internal Revenue Service 
take the value of grazing permits, improvements, and other 
factors into account every day in the evaluation of rangelands 
for the purposes of death and gift transfers, purchases and 
sales. If the Internal Revenue Service can dramatically 
increase a value of a rancher's base property because of a 
grazing permit and improvements for the purposes of imposing 
estate taxes and capital gains taxes, how could the Federal 
Government take away these very same values from a citizen and 
not compensate him or her? And how can anyone ignore the 
financial impact on a ranch of permanently losing a substantial 
amount of its capacity to raise a sufficient number of cattle 
to cover fixed expenses and debt service?
    I begin my testimony with an emphasis that there is much 
local controversy, not only in the towns of Camp Verde, 
Cottonwood, and Clarkdale regarding this proposed exchange, but 
also in the unincorporated areas of Yavapai County. All of this 
controversy is totally apart from the Groseta Ranch issues. The 
Camp Verde Town Council has reversed its position on this 
proposed exchange three times, and the Clarkdale Town Council 
has reversed its position two times. That should tell you that 
this proposed land exchange is very, very controversial in the 
Verde Valley.
    At the outset, it is important to note that the Groseta 
Ranch prefers that the Camp Verde and Cottonwood-Clarkdale 
parcels simply be dropped from the exchange.
    We recognize that the proposed H.R. 2907 will greatly 
benefit Arizona, particularly many counties and municipalities. 
We believe the public goals of such an exchange can be 
effectively completed without including the Camp Verde and 
Cottonwood-Clarkdale parcels. There is already a substantial 
amount of undeveloped private land in the Verde Valley to 
support economic growth and increase the population base.
    However, if the exchange as presented is passed by 
Congress, it will cause a severe economic loss to our family's 
ranch. We have researched this matter and have found that 
according to the Federal Land Policy and Management Act Title 
43, Section 1752(g), statutory authority is provided for 
compensation to grazing permittees in the event a land exchange 
occurs.
    The following economic issues result from the exchange. 
Number one, if the proposed exchange is implemented, 
approximately 2,200 acres of real U.S. Forest Service property 
with grazing rights would be eliminated from Groseta Ranch's 
cattle operation, known as the Camp Verde parcel. This lost 
business opportunity would result in a permanent reduction in 
grazing of at least 47 head of cattle, or 25 percent of the 
carrying capacity of this holding. This will cause a permanent 
loss of net income to Groseta Ranch, which puts an additional 
burden on Groseta Ranch's ability to pay its bills and debt 
service.
    Number two, in addition to the loss of grazing rights, 
vested water rights would be impacted on the Camp Verde parcel.
    Number three, improvements, such as right-of-ways, fences, 
roads, and trails, water pipelines, water troughs, wells, and 
corrals would be lost. Photographs of these improvements are 
included in Exhibit A, which will be submitted for the record.
    Number four, there would be a significantly diminished 
value for Groseta Ranch's fee simple real property interest in 
the Hayfield base holding, not contiguous to the Camp Verde 
parcel, but as a part of the grazing allotment.
    Number five, there will be a significant permanent loss of 
production and, therefore, income by Groseta Ranch as a result 
of the significant reduction in its carrying capacity.
    Number six, presently, the U.S. Forest Service Cottonwood-
Clarkdale parcel, which consists of 820 acres, is landlocked. 
Any prescriptive easement the Forest Service or its transferee 
may obtain in the future will not support a use other than 
running livestock. Lack of legal access and water conservation 
easements are both factors which will encumber the parcels and 
reduce fair market value when they are appraised. This should 
take the parcel out of the proposed exchange altogether.
    We believe the transferee-developer hopes to get this 
parcel at a greatly reduced value and then find a way to get 
around the legal prohibitions to its development. There is no 
other possible explanation why he wants this parcel in the 
exchange. This would be a disservice to the American people, 
who would be basically giving this parcel away.
    In conclusion, the following is a summary of the real 
losses, calculated on a conservative basis, as detailed in 
Exhibit A, which is submitted for the record that will be 
sustained by my family as a result of the exchange. Loss of 
grazing permits, $105,000. Loss of value in base property, 
$141,900. Loss of vested water rights, $9,000. Loss of 
improvements, $153,688. Legal and other related costs, $25,000. 
Loss of business capacity, $111,236. This adds up to a total 
loss to the Groseta Ranch of $545,824.
    A detailed memorandum submitted to Congressman Renzi and 
Senators McCain and Kyl on July 9, 2003, is attached as Exhibit 
A, which is submitted for the record.
    Groseta Ranch's first choice, however, is to have the 
controversial Camp Verde and Cottonwood-Clarkdale parcels 
excluded altogether from the exchange and not suffer any of 
these losses. Even with both of these parcels being excluded 
from the exchange, the exchange itself still offers substantial 
benefits to all parties involved. The proponent of the exchange 
can be compensated for removing these parcels by conveying 
alternative Federal land to him on the Yavapai Ranch, the 
Flagstaff Airport, or other selected Federal lands the Federal 
Government desires to exchange in Northern Arizona.
    However, in closing, if the above-mentioned compensation to 
our family is included in the proposed bill, we can support the 
bill. This concludes my testimony and I would be pleased to 
answer any questions. Thank you.
    Mr. Renzi. Thank you, Mr. Groseta.
    [The prepared statement of Mr. Groseta follows:]

 Statement of P. Andrew (``Andy'') Groseta, Owner, W Dart Ranch, dba, 
                   Groseta Ranches, LLC, on H.R. 2907

    Mr. Chairman and Members of the Subcommittee:
    Good morning. My name is Peter Andrew Groseta, and I am a third-
generation cattle rancher from the Verde Valley in north central 
Arizona. My family came to the Verde Valley at the ``turn of the last 
century'' to work in the copper mines in Jerome, Arizona. In 1922, my 
father's family moved to a ranch in Middle Verde, and in 1936 to 
Cottonwood, where our Ranch Headquarters are today.
    We are a family-run ranching operation. My father passed away in 
May of 2000. My wife, Mary Beth, and I have raised three children, one 
son and two daughters, who are all enrolled at the University of 
Arizona, majoring in agriculture. Our son would like to come back to 
run the ranch, after he receives his college degree.
    I am here today representing my family's ranch, which will be 
adversely impacted if the proposed Yavapai Ranch/USFS Land Exchange is 
passed by Congress, unless Groseta Ranch is fully compensated for the 
real losses it will suffer as a result of the exchange. If this 
exchange is passed by Congress, it will cause a substantial, adverse 
financial loss for my family. Despite what some might say, my family's 
loss will be very real. The exchange will constitute a ``taking'' in 
the truest sense of that word. The marketplace and the Internal Revenue 
Service take the value of grazing permits, improvements and other 
factors into account every day in the valuation of rangeland for the 
purposes of death and gift transfers, purchases and sales. If the 
Internal Revenue Service can dramatically increase the value of a 
rancher's base property because of a grazing permit and improvements 
for the purposes of imposing estate taxes and capital gains taxes, how 
could the federal government take away these very same values from a 
citizen and not compensate him or her? And how can anyone ignore the 
financial impact on a ranch of permanently losing a substantial amount 
of its capacity to raise a sufficient number of cattle to cover fixed 
expenses and debt service?
    I begin my testimony with an emphasis that there is much local 
controversy, not only in the Towns of Camp Verde, Cottonwood and 
Clarkdale regarding this proposed exchange, but also in the 
unincorporated areas of Yavapai County. All of this controversy is 
totally apart from the Groseta Ranch issues. The Camp Verde Town 
Council has reversed its position on this proposed exchange three 
times; and the Clarkdale Town Council has reversed its position two 
times. That should tell you that this proposed land exchange is very, 
very controversial in the Verde Valley.
    At the outset, it is important to note that Groseta Ranch prefers 
that the Camp Verde and Clarkdale parcels simply be dropped from the 
exchange.
    We recognize that proposed H.R. 2907 will greatly benefit Arizona, 
particularly many counties and municipalities. We believe the public 
goals of such an exchange can be effectively completed without 
including the Camp Verde and Clarkdale/Cottonwood parcels. There is 
already a substantial amount of undeveloped private land in the Verde 
Valley to support economic growth and increase the population base.
    However, if the exchange as presented is passed by Congress, it 
will cause a severe economic loss to our family ranch. We have 
researched this matter, and have found that, according to the Federal 
Land Policy and Management Act, 43 USC Sec. 1752(g), statutory 
authority is provided for compensation to grazing permittees in the 
event a land exchange occurs.
    The following economic issues result from the exchange:
    1. If the proposed Exchange is implemented, approximately 2,200 
acres of real property U.S. Forest Service (USFS) grazing rights would 
be eliminated from Groseta Ranch's cattle operation (the ``Camp Verde 
parcel''). This lost business opportunity would result in permanent 
reduction in grazing of at least 47 head of cattle, or 25% or more of 
the carrying capacity of this holding. This will cause a permanent loss 
of net income to Groseta Ranch, which puts an additional burden on 
Groseta Ranch's ability to pay its bills and debt service;
    2. In addition to the loss of grazing rights, vested water rights 
would be impacted on the Camp Verde parcel;
    3. Improvements such as right-of-ways, fences, roads and trails, 
pipelines, wells, troughs and corrals would be lost. Photographs of 
these improvements are included in Exhibit A, which will be submitted 
for the record;
    4. There would be a significantly diminished value for Groseta 
Ranch's fee simple real property interest in the Hayfield base holding 
(not contiguous to the Camp Verde parcel, but the base property of the 
Verde Grazing allotment);
    5. There will be significant, permanent loss of production, and 
therefore, income by Groseta Ranch as a result of the significant 
reduction in its grazing capacity; and
    6. Presently, the USFS Cottonwood/Clarkdale parcel (820 acres) is 
landlocked. Any prescriptive easement the USFS or its transferee may 
obtain in the future will not support a use other than running 
livestock. Lack of legal access and water conservation easements are 
both factors which will encumber the parcels and reduce fair market 
value when they are appraised. This should take the parcel out of the 
proposed exchange altogether. We believe the transferee/developer hopes 
to get this parcel at a greatly reduced value and then find a way to 
get around the legal prohibitions to its development. There is no other 
possible explanation why he wants this parcel in the exchange. This 
would be a disservice to the American people who would basically be 
giving this parcel away.
    In conclusion, the following is a summary of the real losses 
(calculated on a conservative basis as detailed in Exhibit A, which is 
submitted for the record) that will be sustained by my family as a 
result of the proposed exchange:
       Loss of Grazing Permits -- $105,000
       Loss of Value in Base Property -- $141,900
       Loss of Vested Water Rights -- $9,000
       Loss of Improvements -- $153,688
       Legal and Other Related Costs -- $25,000
       Loss of Business Capacity -- $111,236
       Total: -- $545,824
    A detailed memorandum submitted to Congressman Renzi and Senators 
McCain and Kyl, on July 9, 2003, is attached as an Exhibit A, which is 
submitted for the record.
    Groseta Ranch's first choice, however, is to have the controversial 
Camp Verde and Cottonwood/Clarkdale parcels excluded altogether from 
the exchange, and not suffer any of these losses. Even with both of 
these parcels being excluded from the exchange, the exchange itself 
still offers substantial benefits to all parties involved!
    The proponent of the exchange can be compensated for removing these 
parcels by conveying alternative federal land to him on the Yavapai 
Ranch, the Flagstaff Airport, or other selected federal lands the 
federal government desires to exchange in Northern Arizona. However, in 
closing, if the above-mentioned compensation to our family is included 
in the proposed bill, we can support the bill. This concludes my 
testimony. I would be pleased to answer any questions.
    [NOTE: The attachment to Mr. Groseta's statement has been retained 
in the Committee's official files.]
                                 ______
                                 
    Mr. Renzi. I now recognize Ms. Roder.

         STATEMENT OF AILEEN RODER, PROGRAM DIRECTOR, 
                   TAXPAYERS FOR COMMON SENSE

    Ms. Roder. Thank you. Good morning, Chairman Renzi, 
Congressman Inslee, and other distinguished members of the 
Subcommittee. I am Aileen Roder, Program Director at Taxpayers 
for Common Sense, a national nonpartisan budget watchdog group. 
I would like to thank you for inviting me to testify today 
regarding H.R. 2907, which would convey approximately 21,000 
acres of Forest Service land to Yavapai Ranch in exchange for 
lands within the boundaries of the Prescott National Forest in 
Arizona.
    Taxpayers for Common Sense strongly opposes H.R. 2907 and 
is concerned about land transfers and land exchanges in 
general. In 1998, TCS testified urging that taxpayers deserve a 
fair return on the public's investment. Under fair market 
terms, both U.S. taxpayers and local interests can benefit from 
land exchanges. However, due to recent controversies 
surrounding the management of Federal lands, we believe that a 
temporary moratorium on all land exchanges should be 
implemented.
    We need to fix the system administratively. The legislative 
process should be eliminated because it lacks a process for 
public input and raises the specter of political influence 
dictating outcomes.
    H.R. 2907 allows Yavapai Ranch to have its cake and eat it, 
too, with Yavapai Ranch keeping its grazing allotment and part 
of its water rights on the lands it is exchanging to the 
Federal Government while receiving extremely valuable lands 
throughout the Verde Valley. H.R. 2907 also requires the Forest 
Service to reimburse grazing rights of those entities that are 
currently grazing on the Federal lands that Yavapai will 
receive. The cost of reimbursing these grazing rights should 
not fall upon taxpayers.
    The conservation or water restriction easements on two 
parcels of Federal lands to be given to Yavapai will decrease 
the fair market value of the Federal property. Due to an 
apparent loophole in H.R. 2907, these water restrictions will 
reduce the estimated value of the two parcels while not 
actually achieving the goal they are seeking.
    Local communities in the Verde Valley are extremely 
concerned regarding this land exchange, with 15 out of 31 local 
elected officials opposed to this land exchange being 
legislated. Under a legislated land exchange, the public will 
not see the appraisal of Federal and non-Federal lands until 
the land exchange is complete. Secrecy in completing land deals 
is bad public policy and it hurts the public trust in the 
process.
    The General Accounting Office investigated Federal land 
exchanges conducted by BLM and the Forest Service and 
documented numerous cases in which the Federal Government did 
not ensure that the land being exchanged was appropriately 
valued or that land exchanges served the public interest or met 
other land exchange requirements. The GAO found that agencies 
have given more than fair market value for the non-Federal land 
they acquired and accepted less than fair market value for 
Federal land that they conveyed. The agencies did not follow 
their requirements that help show that the public benefits of 
acquiring the non-Federal land in an exchange matched or 
exceeded the public benefits of retaining the land.
    As a result, GAO stated, ``We believe that Congress may 
wish to consider directing the Service and the Bureau to 
discontinue their land exchange programs.'' BLM and Forest 
Service must be cognizant of the serious issues raised by GAO. 
In response to these concerns, the Department of Interior 
recently announced the creation of a new team that will plan to 
consolidate appraisal functions performed by various agencies 
within the Department of Interior.
    In conclusion, H.R. 2907 raises numerous taxpayer concerns, 
both to the specific land exchange and the Federal land 
exchange system in general. Congress should eliminate 
legislative land exchanges because they are too susceptible to 
the political influence. Simply put, land exchanges are an 
administrative function and should be removed from the 
political arena.
    Specifically, the Yavapai land exchange reveals many 
questions regarding valuation of Federal and non-Federal lands, 
the right of the Yavapai Ranch to retain water and grazing 
rights, local community opposition, and the inability of 
taxpayers to see appraisals until after the land exchange is 
completed. These problems raise concerns of fundamental 
fairness to both local communities and American taxpayers.
    Thank you again for the opportunity to testify today, and I 
would be happy to answer any questions you might have.
    Mr. Renzi. Thank you for your articulation, Ms. Roder.
    [The prepared statement of Ms. Roder follows:]

             Statement of Aileen Roder, Program Director, 
                Taxpayers for Common Sense, on H.R. 2907

    Good morning, Chairman McInnis, Congressman Inslee, and other 
distinguished members of the Subcommittee. I am Aileen Roder, Program 
Director at Taxpayers for Common Sense (TCS), a national, non-partisan 
budget watchdog group. I would like to thank you for inviting me to 
testify at this hearing regarding H.R. 2907, which would provide for a 
land exchange in the State of Arizona between the Secretary of 
Agriculture and Yavapai Ranch Limited Partnership.
    Taxpayers for Common Sense strongly opposes H.R. 2907. This bill, 
introduced in July by Congressmen Renzi (R-AZ) and Hayworth (R-AZ), 
would convey approximately 21,000 acres of Forest Service land to 
Yavapai Ranch in exchange for lands within the boundaries of the 
Prescott National Forest, Arizona.
    Unfortunately, H.R. 2907 is just one more example of the 
controversy and problems associated with the federal land exchange 
system. In June 2000, the General Accounting Office (GAO) documented 
numerous cases in which the federal government ``did not ensure that 
the land being exchanged was appropriately valued or that exchanges 
served the public interest or met other exchange requirements.'' 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Land Exchanges Need to Reflect Appropriate Value and Serve the 
Public Interest. June 2000, (GAO/RCED 00-73).
---------------------------------------------------------------------------
    Taxpayers for Common Sense favors privatizing or devolving certain 
federal assets to state or local government in appropriate 
circumstances. Under fair market terms and conditions, both U.S. 
taxpayers and local interests can benefit from land exchanges. However, 
due to the extreme controversy surrounding the management of federal 
land exchanges in recent years, TCS believes that we need to have a 
temporary moratorium on all land exchanges until the system can be 
fixed. The administrative process should be revamped to be fully 
transparent and serve taxpayer, not private interests. The legislative 
land exchange process should not exist, period. The legislative 
process, such as it is, lacks a process for public input and visibility 
and raises the specter of political influence dictating outcomes. 
Simply put, land exchanges are an administrative function and should be 
removed from the political arena.
Federal Land Exchange System in Desperate Need of Reform
    In order for a land exchange to occur under federal law, the 
estimated value of the nonfederal land must be within 25 percent of the 
estimated value of the federal land and the public interest must be 
well-served. <SUP>2</SUP> In its June 2000 report, GAO investigated 
federal land exchanges conducted by the U.S. Bureau of Land Management 
(BLM) and the U.S. Forest Service between 1989 and 1999. <SUP>3</SUP> 
During that time period, the Forest Service completed approximately 
1,265 land exchanges, valued at over $1 billion, and acquired a net 
total of about 950 square miles. <SUP>4</SUP> BLM does not track 
exchanges, but instead counts transactions (two can occur for every 
land exchange). <SUP>5</SUP> Between 1989 and 1999, BLM completed about 
2,600 transactions, acquiring approximately 550 square miles. 
<SUP>6</SUP>
---------------------------------------------------------------------------
    \2\ P.L. 94-579, October 21, 1976.
    \3\ GAO/RCED 00-73.
    \4\ Ibid.
    \5\ Ibid.
    \6\ Ibid.
---------------------------------------------------------------------------
    The GAO found <SUP>7</SUP>:
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    1.  ``The agencies have given more than fair market value for 
nonfederal land they acquired and accepted less than fair market value 
for federal land they conveyed because the appraisals used to estimate 
the lands' value did not always meet federal standards.''
    2.  ``The agencies did not follow their requirements that help show 
that the public benefits of acquiring the nonfederal land in an 
exchange matched or exceeded the public benefits of retaining the 
federal land, raising doubts about whether these exchanges served the 
public interest.''
    3.  BLM ``sold federal land, deposited the sales proceeds into 
interest-bearing escrow accounts, and used these funds to acquire 
nonfederal land (or arranged with others to do so). Current law does 
not authorize the Bureau to retain or use proceeds from selling federal 
land; it instead requires the Bureau to deposit sale proceeds into the 
Treasury and to use appropriations to acquire nonfederal lands. In 
using these funds and the interest earned on them to purchase land, the 
Bureau augmented its appropriations. The Bureau also did not comply 
with its sale authority when it sold the land, and none of the funds 
retained in escrow accounts or used in this manner were tracked in the 
Bureau's financial management system.''
    As a result, GAO stated, ``[W]e believe that the Congress may wish 
to consider directing the Service and the Bureau to discontinue their 
land exchange programs.'' <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Ibid.
---------------------------------------------------------------------------
    GAO's findings raise serious concerns about federal land exchanges. 
Although there are times when exchanging federal lands for nonfederal 
lands may appear like a good solution, BLM and the Forest Service must 
be cognizant of the issues raised by GAO. In fact, the Department of 
Interior recently announced the creation of a new team that will 
provide an action plan for consolidating appraisal functions performed 
by various agencies within the Department of Interior.
    TCS believes that land exchanges that occur through the legislative 
process are more prone to misuse and political influence than those 
occurring through the administrative process. Legislative land 
exchanges that are conducted for political reasons are less likely to 
ensure that land is properly valued and the public interest is 
protected.
    Taxpayers for Common Sense has been concerned with land exchanges 
for years. In 1998, TCS also testified about land transfers and 
exchanges. Then as now, TCS urged that taxpayers deserve a fair return 
on the public's investment.
Specific Taxpayer Concerns Regarding H.R. 2907
    Under H.R. 2907, Yavapai Ranch will keep its grazing allotment and 
water rights to three wells on the properties that it transfers (the 
Forest Service will be entitled to half the production in each of the 
wells up to 3,100,000 gallons a year). In effect, H.R. 2907 allows 
Yavapai Ranch to ``have your cake and eat it too.'' Yavapai Ranch can 
continue its ranching activities and water usage on the lands it has 
exchanged to the federal government while receiving extremely valuable 
land throughout the Verde Valley.
    The conservation, or water restriction, easements on two parcels of 
federal lands to be given to Yavapai will decrease the fair market 
value of the federal property. It appears that these restrictions could 
be evaded or irrelevant to actual potential water use, therefore 
obviating the utility of water restriction easements on these two 
parcels of land. As a result, these water restrictions would reduce the 
estimated value of these two parcels of federal land without actually 
achieving their goal.
    Along with allowing Yavapai Ranch to keep its grazing rights, H.R. 
2907 also requires the Forest Service to reimburse grazing rights of 
those entities that are currently grazing on the federal lands that 
Yavapai will receive. The cost of reimbursing these grazers should not 
fall completely on taxpayers.
    Under a legislated land exchange, the public will not see the 
appraisal of federal and nonfederal lands to be exchanged until after 
the deal is completed. This leaves the public with little recourse to 
affect the land exchange. Secrecy in completing land deals is bad 
policy and hurts the public trust in the process. It makes taxpayers 
and local communities feel like their interests and concerns are 
secondary. Instead, appraisals should be a matter of public record 
prior to the signing of land exchange deals. By making the federal land 
exchange appraisal process more transparent, BLM and the Forest Service 
can get more public buy-in to the end result, thereby reducing 
controversy and concerns around pending land exchange deals.
    Under this bill, if the Secretary of Agriculture lacks adequate 
staff or resources to complete the land exchange, Yavapai can hire 
third-party contractors, subject to mutual agreement of the Secretary 
and Yavapai Ranch, to carry out activities necessary to complete the 
exchange by 18 months after H.R. 2907 becomes law. The Secretary must 
reimburse Yavapai for costs associated with these contractors. This 
provision sets up a potentially strange dynamic where a private entity 
can force congressional appropriators to fund administrative costs for 
a land exchange, even if those appropriators chose for policy reasons 
to defund federal land exchanges.
    Finally, local communities in the Verde Valley are extremely 
concerned regarding this land exchange. Letters and petitions have been 
sent. Fifteen out of 31 elected officials in the Verde Valley are 
opposed to this land exchange being proposed. This is further evidence 
that the public would like more input into the process rather than 
being excluded from negotiations. Based on this and other public and 
taxpayer concerns, this land exchange should not be legislated, but 
should instead go through the administrative process. Allowing the 
public to be more involved could go a long way towards ensuring local 
communities and federal taxpayers that their concerns are being taken 
seriously and addressed.
Conclusion
    In conclusion, H.R. 2907 raises numerous taxpayer concerns related 
both to this specific land exchange and to the federal land exchange 
system in general. Congress should implement a moratorium on all land 
exchanges until such time that the public can be ensured that ``the 
land being exchanged was appropriately valued or that exchanges served 
the public interest or met other exchange requirements.'' <SUP>9</SUP> 
We should eliminate legislative land exchanges because they are too 
susceptible to political influence. Instead, land exchanges are an 
administrative function and should be removed from the political arena.
---------------------------------------------------------------------------
    \9\ GAO/RCED 00-73.
---------------------------------------------------------------------------
    Specifically, the Yavapai land exchange raises numerous questions 
regarding valuation of the federal and nonfederal properties, the right 
of Yavapai Ranch to retain water and grazing rights, local community 
opposition, and the inability of the taxpayers to see land appraisals 
until after the exchange deal has been completed. These problems raise 
concerns of fundamental fairness to both local communities and American 
taxpayers.
    Thank you again for the opportunity to testify today and I would be 
happy to answer any questions you might have.
                                 ______
                                 
    Mr. Renzi. At this time, we would like to move to questions 
of the members. I remind the members under Rule 3(c), we impose 
a 5-minute limit on questions. At this time, I would like to 
recognize the gentleman from Arizona, Congressman Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman.
    Mr. Rey, thank you for joining us this morning. If my 
understanding is correct, I believe you testified at the Senate 
hearing that it could take seven to 8 years to complete this 
exchange if we do not do it by legislation. Is that still the 
correct estimate?
    Mr. Rey. That would be the optimistic scenario absent any 
appeals or legal action that might follow a major land exchange 
like this.
    Mr. Hayworth. As is often the case in panels, and for the 
record, I thought it was interesting to hear critical 
discussions as if we are not taking into account different 
points of view, and we welcome all of the panelists because 
there are substantially different points of view on this that 
is now being made part of the public record even as we speak.
    Mr. Rey, you also mentioned in your testimony that this 
exchange could result initially in $1 million worth of savings, 
I believe I heard in your testimony. Could you expound upon 
that?
    Mr. Rey. That is just an example. That may be the simplest 
one to describe because we won't be doing land line locations 
throughout an extended checkerboard ownership and we can 
quantify that directly in terms of what our average land line 
costs are per linear foot.
    But more broadly, you know, you have to consider that the 
status quo is not going to remain static absent this exchange. 
Within that checkerboard are areas that are susceptible to 
development. If some of those checkerboard private acres are 
developed, then our costs for managing our ownership within the 
checkerboard will escalate dramatically. Just our fire fighting 
and fire suppression costs alone will go through the roof 
because we will be bound to try to protect some of the 
subdivisions that are created within that checkerboard.
    So this is an important land exchange to get us out of a 
land ownership pattern that is archaic and dates back over 160 
years.
    Mr. Hayworth. Thank you, Mr. Rey.
    Mayor Dickinson, you have testified that the 2,200 acre 
Camp Verde parcel is a local place for future community growth 
and that placing a regional shopping center and other 
development in that area, if possible, is a better place to 
channel future development in your town than along the bottom 
lands of the Verde River. Do your fellow council members agree 
with that assessment?
    Mr. Dickinson. Yes, that is indeed correct. At the current 
time, we have a seven-person council, and six members of which 
are in favor of this exchange, and the idea of putting the 
development on the freeway, where there is proper access, away 
from the Verde--I mean, any other land that we have available 
for commercial development, it is a piece here, a piece there, 
mixed in with residential, not proper access. It is just really 
along the freeway is where we need to build a tax base for our 
community.
    Mr. Hayworth. And the council vote was six to one--
    Mr. Dickinson. Our current council sits six to one, and Mr. 
Groseta was indeed correct. It has been an issue that got arm 
wrestled out. But the community at this point, for about the 
last 9 months now, has been real strong on it and in recent 
months the logical sense of all of this has really come to the 
forefront. Our council is strongly in support of this.
    Mr. Hayworth. Mr. Mayor, I would appreciate that, and I 
think we would note in public policy it is rare when we get 
complete unanimity on questions of these types. Our friend, the 
late John Rhodes, used to say that public policy results in the 
art of what is possible, not what is always agreed to 
throughout, and so certainly we are dealing with this today and 
we welcome all the testimony.
    One final question for Mr. Rey. Mr. Rey, recently, the 
environmental group Public Employees for Environmental 
Responsibility, or PEER, claimed that violence against Federal 
employees has increased due to Bush administration policies. 
Have you had a chance to review that analysis to verify its 
accuracy, and how would you respond to the claims of PEER in 
general?
    Mr. Rey. When we saw that release a couple of months ago, I 
asked Forest Service law enforcement to go back into the data 
base that PEER requested through the Freedom of Information Act 
to use to build that claim. What we found, and I will make this 
report available for the Subcommittee's record, is that the 
threats and assaults against Forest Service employees actually 
declined by 40 percent over the last year. So it is an enigma 
to me how PEER managed to mis-analyze the data to show an 
increase when the data actually show a reduction.
    The second allegation, that these are somehow the result of 
Bush administration resource management policies, ignores the 
fact that most of the threats or assaults were made by drunks, 
drug runners, and devoted environmental protesters.
    Mr. Hayworth. Mr. Rey, I thank you for your response and I 
thank all of the panelists. I think we have a new definition of 
peer pressure. I yield back.
    [Laughter.]
    Mr. Renzi. I thank the gentleman from Arizona.
    I recognize now the gentleman from Washington, Mr. Inslee.
    Mr. Inslee. Thank you. Mr. Rey, I am sure you don't lump 
all those groups together.
    Mr. Rey. No.
    Mr. Inslee. It was just a coincidence that--
    Mr. Rey. Those were just the three largest categories.
    Mr. Inslee. I appreciate that clarification.
    [Laughter.]
    Mr. Inslee. Maybe I could just ask the panel in general 
about this issue, and not knowing the area, not very well 
versed in this conservation easement issue, but is this 
mechanism different than a water rights retention, and if not, 
why not? Why not a water right--why not a transfer or retention 
of water rights as opposed to a, quote, ``conservation 
easement''?
    As I understand the conservation easement, you are trying 
to affect the surface usage of the land but not necessarily 
specifically adjudicating or handling the specific water right. 
Is my understanding correct, and maybe you could just address 
the effectiveness of this. I know a question has been raised 
about a potential loophole of one or two of the municipalities 
being able to use this one aquifer. If all of you, if you can, 
address the enforceability and how this affects the water 
rights itself. That is an open question to anyone.
    Mr. Dickinson. The enforceability in Camp Verde, we feel 
like is going to be done through the zoning and the planning 
and zoning process. When this land goes into private ownership, 
it is going to carry the current zoning on it, which is RCU-2A, 
which historically was a zoning classification designated by 
Yavapai County in the late 1950s, early 1960s as they were 
unsure about how Yavapai County would develop. It stands for 
Residential or Conditional Use, Two Acre Minimum. So when 
somebody acquires Forest Service land, they have two-acre 
zoning.
    Obviously, two-acre residential zoning along a busy 
freeway, where it is a prime spot for commercial development, 
is not the zoning that is going to be needed. As soon as this 
legislation is passed, the town of Camp Verde would move to 
adopt those conservation easements as part of the land use and 
the zoning on that so that any applicant that comes forward 
with a planned area development or any development issue 
whatsoever would be forced, if that zoning did not look like 
that it met those water conservation easements, it wouldn't be 
approved.
    The underlying factor of this is also, as you may or may 
not know, in our State, Salt River Project carries a pretty big 
stick about water issues, as well, and they are going to be 
monitoring that. The 700 acre feet that have been allotted for 
the Camp Verde piece, we think is a fair and accurate 
allocation of water. It is not too much. It is not too little. 
But it was sensible enough that the Salt River Project was 
involved in those negotiations.
    So just through this planning and zoning process, we feel 
locally we can control that water usage.
    Ms. Roder. Congressman, we have concerns that there are 
ways to get around this, similar to the concerns raised by the 
Department of Agriculture, that there is a loophole with the 
ability to go out to the private water market and which would 
mean that we would potentially devalue the Federal lands that 
are being exchanged to Mr. Ruskin without actually achieving 
any of the conservation goals that we are seeking.
    Mr. Inslee. Could you describe how that would work? When 
you say go out to the private water market, what do you mean?
    Ms. Roder. Well, there is a provision, Congressman, that 
they potentially can, from our reading of it, go above the 700 
acre feet within the one parcel and the 150 acre feet within 
the other parcel on the water market and purchase additional 
water, which would mean that the actual goal of conserving 
water in this area, which seems to be one of the greatest 
concerns of the people of the Verde Valley, as the folks that I 
have talked to, would then be obviated. At the same time, we 
would devalue the Federal land, making the deal a lot worse for 
Federal taxpayers.
    Mr. Inslee. Is the conservation easement a retention 
independent of the municipal zoning? Is that correct? In other 
words, there would be in the title an easement, is that 
correct?
    Mr. Rey. That is correct.
    Mr. Inslee. And is there a retention of water rights itself 
or a transfer of water rights itself in the proposed 
legislation?
    Mr. Rey. The easement is a transfer of water rights, or the 
use, the right to use water.
    Mr. Inslee. I am trying to wrap my arms around that, 
because to me, a conservation easement is a restriction of land 
usage, whereas a water right would be a legal right to the 
usage of the water itself. What I am hearing is there is the 
former, namely there is a restriction of land usage, which by 
implication you would assume would reduce or sort of compel 
certain usages of water, but there is not a specific 
legislative description of the water right. Am I correct on 
that, or do I misunderstand this?
    Mr. Rey. I think--let me see if I can explain it, and I 
don't hold myself out as an expert in water rights. In this 
particular case, the water is the value. Without water, the 
land has a much reduced value. What many proponents of the 
exchange would like to assure occurs is that the lands are not 
developed beyond the point such that the water usage associated 
with that development becomes a problem within the Verde 
Valley.
    So what the easement does is essentially purchase part of 
the water right and convey it into public ownership, or retain 
it in public ownership. Now, that will have the effect of 
devaluing the land, but since we are retaining the value of the 
water in public ownership, the devaluation of the land isn't of 
great concern to us. It all evens out.
    Now, if it is theoretically possible to purchase water from 
the outside, and I doubt that it is given the scarcity of water 
in this particular area, but even if it is theoretically 
possible, the cost of purchasing that water is going to be an 
added cost to whatever landowner wants to try to do it. The 
government isn't losing anything by breaking up the water and 
the land rights in this case because we are retaining the water 
rights.
    Mr. Inslee. Thank you.
    Mr. Renzi. Thank you. I will move to Mr. Duncan for a 
statement or questions.
    Mr. Duncan. Thank you, Mr. Chairman. I don't have any 
questions, but I will say that I note that Mayor Dickinson is 
here representing eight different mayors, he says all of whom 
strongly support this legislation. I do hope that Mr. Groseta's 
concerns can be taken care of in some way.
    But I heard the last witness say that the politics should 
be removed and the political influence should be removed. 
Actually, politics is just a way for the people to have some 
say-so in or control over their own government. It seems to me 
that to be a very elitist attitude to say that the will of the 
great, great majority of the people should be ignored and that 
this decision should be left with unelected bureaucrats, and it 
is obvious that the great, great majority of people there do 
support this, with the support of the members of Congress and 
all the mayors in the cities, and so it appears to me that this 
is good legislation which we should support.
    I yield back the balance of my time.
    Mr. Renzi. I thank the gentleman.
    Mr. Udall?
    Mr. Mark Udall. Thank you, Mr. Chairman. At this time, I 
don't have any questions. I did want to thank the panel for 
taking the time to join us. It has been very helpful to me to 
get a better sense of what we face. Thank you.
    Mr. Renzi. I thank the gentleman.
    Mr. Flake?
    Mr. Flake. I will just echo Mark's comments, or the 
Congressman from Colorado. I am glad to have the panel here. I 
am sorry I was not able to hear most of the testimony, but I 
have read some of it and I am in support of this deal and am 
glad to hear the supporting comments from the panel. Thanks.
    Mr. Renzi. Thank you, Mr. Flake.
    Mr. Udall of New Mexico?
    Mr. Tom Udall. Thank you, Chairman Renzi. My question goes 
to the waiver of the NEPA process. I see there are a number of 
letters here, one from the North Central Arizona Regional Water 
Consortium that talks about there is no mechanism for ensuring 
the people of the United States receive fair value in exchange 
for public lands. It also talks about why aren't we going 
through a public process. A lot of these considerations that 
are out there ought to be fleshed out in a public process 
rather than just having one hearing here in Washington. 
Somebody else raises the issue there is currently not enough 
water in this area to support the land that is already owned.
    Can you speak to the issue of why we are waiving NEPA, 
which is a process that normally allows planning and public 
input there at the local level?
    Mr. Rey. It is not uncommon in large legislated land 
exchanges for the Congress to decide that the legislative 
process will stand as an adequate or more than adequate 
substitute for the public process associated with NEPA. The 
legislative process is, I think, a public process. This is the 
third hearing at which I have personally testified, so it has 
been exhausting for me, at least, speaking for nobody else 
comfortably. But it is not unusual for a legislated land 
exchange to waive NEPA.
    Mr. Tom Udall. Well, I know that is not unusual, Mr. Rey, 
but why are you doing it under these circumstances?
    Mr. Rey. I am not.
    Mr. Tom Udall. What is the argument for--are you support 
it? Is the Department of Agriculture supporting the waiver in 
this legislation?
    Mr. Rey. We have indicated, in the context of the amount of 
analysis that has already been done as well as the amount of 
review that Congress has put to this land exchange, that we 
don't object to NEPA being waived. There is some question as to 
what additional utility a full-blown NEPA review would serve. 
It would certainly delay the culmination of this exchange 
significantly. It would establish additional grounds for 
litigating an exchange which presumably, if it passes Congress, 
the Congress wants to see done. And it would probably cost us 
and/or the other parties to the exchange a couple of additional 
extra million dollars to process the NEPA documents.
    Ultimately, the Congress has to decide whether you want 
NEPA complied with, but as has been the case in virtually every 
other legislated land exchange, Congress has decided that their 
own deliberations stand as a more than adequate substitute for 
agency proceedings under NEPA.
    Mr. Tom Udall. It seems to me, with all the controversies 
that are here in these documents, that the NEPA process would 
be a better one in terms to try to accommodate those at the 
local level and I am a little surprised that your agency isn't 
more deferential to local people and the planning process.
    I would like to ask Ms. Roder the same question and if she 
has any comments on this issue.
    Ms. Roder. Thank you, Congressman. I would definitely agree 
that we need to go through the administrative process here. 
That would allow public hearings within Arizona, where the 
people are actually being affected. And there are 3,800 people, 
constituents in this area, who have signed a petition asking 
for the removal of the Clarkdale and Camp Verde sections of 
this land exchange. They are not able to be here in Washington, 
D.C., to speak to all of you and we believe that they should 
have that opportunity.
    We also believe we should have the opportunity to see an 
appraisal prior to this land exchange. I mean, once it is 
completed, I can go for public inspection in the offices of 
several national forests, but that doesn't really help us once 
we have actually completed a land exchange.
    I have received calls from Jerome Vice Mayor Jay Moore, 
Cottonwood's council member Diane Jones, Camp Verde council 
member Tony Drea, and I know that there are numerous other 
elected officials in this area who are deeply concerned about 
this and they should have the opportunity to go through the 
administrative process and be able to speak their minds about 
this issue so that we can make sure it is the best deal for 
both Mr. Ruskin and the Federal taxpayer. Mr. Ruskin has 
admitted to reporter Ken Olson in an article that this land 
exchange, he would not be able to get it through without 
Congress's help, which to me says something about the process 
that we are going through here.
    Mr. Tom Udall. Thank you. It also seems to me that NEPA 
would direct the Forest Service to look at alternatives under 
that process and then maybe some of the more controversial 
parcels could be excluded from this particular deal.
    With that, Mr. Chairman, thank you very much and I yield 
back. Thank you to the panel.
    Mr. Renzi. Thank you, Mr. Udall.
    Let me take privilege here and use my 5 minutes on a couple 
of--to help clarify a couple issues.
    First of all, this exchange has taken many, many years. Ms. 
Roder, there have been over 80 public meetings, hearings, town 
halls. I have had five town halls myself in Yavapai, in the 
Verde Valley area, in Sedona. I met with the opposition, 
visited the land three times. Over 80 public hearings and 
meetings, going all the way back to 2000.
    It is a complicated trade and we took our time with it in 
my office. It was introduced in the 107th by the gentleman from 
Arizona, Congressman Hayworth, on the Senate side by Senator 
McCain. The Grand Canyon Trust, who is not normally friendly to 
many of my positions, has endorsed it.
    And one of the reasons why we are looking at trying to come 
up with a legislative process and have now moved away from the 
administrative process is because it has taken so long. There 
have been 90 jobs last year lost in Flagstaff with one company 
who has moved out of the area because they have inability to 
get in and out of the airport, which is landlocked by Federal 
land.
    Williams is out of water. The people in Williams will not 
drink, and the water they drink now is 8 percent of their 
capacity, unless we fix this. As has been said, over 6,000 or 
7,000 children will benefit. Never mind the fact that the 
largest private Ponderosa pine forest in Arizona, with the 
largest non-fenced antelope range in Arizona will be exchange, 
pristine land for impacted land.
    For all these reasons and the greater good, I got behind 
this, and I took my time with it because I was concerned, as 
you were, particularly with the water conservation areas that 
Mr. Inslee talked about. But the water conservation portion 
written by Mr. Kyl limits the amount of water that the Yavapai 
Ranch can use.
    You talked about the fact that you think there is a 
loophole and the fact that they could use a private water 
company. We are still talking about one house per two acres. So 
whether they go down and drill their own well and stay out of 
the Aluvian, which feeds into the Verde River, or they tap into 
the local water company, they still can only use the amount of 
water that supports a family of one house per two acres. And so 
in itself, it restricts the amount of water that will be used, 
and it is a compromise that we reached out to with the 
environmental community, and particularly those concerned with 
water use.
    I would like to move to Mr. Groseta's issue, Mr. Rey, as it 
relates to the cattlemen. I felt it would be a hypocrisy for me 
to be pushing legislation in the next few months in developing 
a Cattlemen's Bill of Rights and not address the issue of 
reimbursements for our cattlemen in America as it relates to 
loss of use for its betterments and improvements. Historically, 
your agency has done a wonderful job of reimbursing cattlemen 
as it relates to betterments and improvements. The cattleman 
goes on the land. He gets a contract, permit for 10 years, puts 
wells in, corrals, invests his life savings into it, many times 
has to borrow second mortgages to do it, and then we come along 
and tell him, well, you have got 2 years to get off the land.
    Fundamentally, let me understand, when we take our 
cattlemen off the land--and let me just back up for a second. 
The Tonto Range the gentleman from Arizona represented so well 
for many years used to support 50,000 cattlemen. We are now 
down to less than 500. Not just the drought, but policies are 
forcing the Arizona beef industry and the cattlemen off the 
land.
    I would ask you, where is it we are missing in recognizing 
loss of use for our cattlemen?
    Mr. Rey. Let me try to describe how the current situation 
works, and it is hopefully a little bit simpler than the water 
issue. We have well-established procedures that if we need to 
reduce or terminate usage of one of our permittees, that we 
will reimburse them for improvements that they have made on the 
range, and typically when we have to do that, we normally 
arrive at an acceptable result in terms of the value of those 
improvements.
    As far as the loss of use, however, it is at present well 
established law in the Tenth Circuit and elsewhere in Arizona 
and New Mexico--Arizona is in the Ninth Circuit, New Mexico is 
in the Tenth Circuit, but I think both circuits have held the 
same holding--that a permit to graze on Federal lands is a 
privilege and not a right.
    So there is a disconnect in the legal system, I guess you 
could say. On the one hand, for taxation purposes, the IRS 
looks at a grazing permit as an asset that has value that is 
taxable. On the other hand, insofar as regulating grazing use 
on Federal lands, we have established as a matter of law that 
grazing use is not a privilege and, therefore, not compensable 
if it is reduced or eliminated.
    If the decision in this bill is to reimburse Mr. Groseta 
for the loss of use, I don't think you will have much problem 
from the administration. I would suggest, however, that if you 
do that, that you make it clear that you are not trying to 
establish a precedent in this bill to change the established 
jurisprudence on the status of a grazing permit, and you might 
also want to just work on establishing what the number is--
    Mr. Renzi. I appreciate it.
    Mr. Rey. --and save both Mr. Groseta and us some time.
    Mr. Renzi. It is not just Mr. Groseta. There are three 
permittees which I particularly emphasize to my colleagues 
includes the Yavapai Apaches in Camp Verde. Fundamentally for 
me, I recognize that when you kick cattlemen off the land, that 
there is a loss of use, and I think it is a philosophical 
argument that we can carry forward.
    I think we will go for a second round here. Congressman 
Hayworth from Arizona?
    Mr. Hayworth. Thank you, Mr. Chairman. Just a couple of 
questions.
    Mr. Rey, to follow up, it has been cited in testimony by 
others in a June 2000 report on land exchanges. What changes 
has the Forest Service made as a result of that GAO report in 
June of 2000?
    Mr. Rey. The June 2000 GAO report was followed in short 
order by a Department of Agriculture Office of Inspector 
General report. We have issued a new set of directives to the 
field to respond to the recommendations of both the GAO and the 
Inspector General. I will make those new directives available 
for the Subcommittee's record. I would suggest that much of the 
concern raised about previous Forest Service procedures have 
been addressed by those directives.
    Mr. Hayworth. Thank you very much, Mr. Rey.
    In listening to some of the questions and some of the 
responses in the first panel, Mr. Chairman and my colleagues, 
it seems there is a paradox here. On one hand, we received 
testimony that this would be a waste of taxpayers' money. On 
the other hand, there are those who want to see an 
administrative process continue that would eventually cost 
taxpayers more money, and we fail to take into account what 
might transpire in terms of economic enterprise for communities 
such as Camp Verde and what that would do for the tax base, and 
also what the open space provisions would do environmentally. 
And indeed, as the Chairman pointed out, there are some 
environmental groups who have endorsed the project.
    Ms. Roder, I thank you for coming today and offering your 
testimony and I was especially interested to hear your take 
that the administrative process is, in your view, far more 
desirable than the process of Congress dealing legislatively 
with land exchanges. I would respectfully submit that the 
essence of public interchange and scrutiny comes through the 
elective process. All of my colleagues here, Republican, 
Democrat, Libertarian, vegetarian, Independents, all of us who 
serve in the Congress of the United States must stand at the 
bar of public opinion every 2 years. We are ultimately 
accountable to the people.
    And while I appreciate the fact that you cited some public 
officials who had a different take on this who are unable to 
come to Washington, I think the reverse might be asked of you. 
Have you had a chance to visit Arizona and visit with Mr. 
Renzi's constituents firsthand on the property site and see 
what is transpiring there with this land and with the exchange.
    Ms. Roder. I have been to Arizona, Congressman--
    Mr. Hayworth. No, the question--
    Ms. Roder. --but not to this particular land exchange.
    Mr. Hayworth. That is my question. Have you been to visit 
firsthand with the people there, the land holdings there, that 
you this morning testify against?
    Ms. Roder. No, Congressman, but 3,800 people--
    Mr. Hayworth. That speaks volumes, ma'am. I have no further 
questions.
    Mr. Renzi. I thank the Congressman.
    We will get one more question out of the gentleman from 
Washington and we will take a break.
    Mr. Inslee. This may sound like a rookie question, but I am 
going to ask it. Essentially, what we are doing in this 
legislation is we are directing the Forest Services to go out 
and do these appraisals and giving, as I understand it, a 
preapproval to whatever appraisal process they come up with and 
the lands they select. Is that correct?
    Mr. Rey. Not quite. What you are directing us to do is to 
use the Uniform Standards of Federal Appraisal, so that is a 
known appraisal process, and the legislation does then put 
together a list of the order for the exchanges to occur. So 
there are more knowns in what you are directing us to do, given 
that we know what the Uniform Standards of Federal Appraisal 
will do.
    Mr. Inslee. So if you were going to pick a percentage, if 
you were going to draw a map today of what you think would be 
involved in these exchanges, what parameters are there that 
change in the appraisal process, do you figure?
    Mr. Rey. I would say that the changes will be on the 
margin. What you are doing is anticipating what the rough 
appraised value would be. That will then go through the formal 
appraisal, and then if we have to adjust, there are provisions 
in the bill for adding or deleting tracts at the bottom end to 
make sure that it is a value for value exchange.
    Mr. Inslee. Thank you.
    Mr. Renzi. I have one more question and then we can take a 
break. The gentlemen can leave anytime they want for the vote.
    I want to recognize the mayor from Clarkdale, Mike Bluff, 
to help me--early on, he helped me understand an issue as it 
relates to access. Mike, do you mind rising? Without objection 
from the panel, I would like to recognize Mayor Bluff.
    Mr. Groseta talked about access, in particular near 
Clarkdale, and one of the reasons being that he would like to 
see that parcel dropped out. Can you help me understand that a 
little bit better?
    Mr. Bluff. Sure. Thank you very much for giving me the 
opportunity to speak. The portion that is in Clarkdale was 
annexed about 2 years ago and that actually abuts our town 
limits right now. So there is--from my perspective, it is not 
landlocked. It touches our boundaries now. There is access from 
the existing Town of Clarkdale into that area or we wouldn't be 
able to annex it. There is not a road through there now, but 
you can access the parcel that we are talking about, the 
Clarkdale parcel, through the Clarkdale, the existing Clarkdale 
town limits.
    Mr. Renzi. Mayor Bluff, the parcel that Clarkdale would be 
receiving or that you would be working on as far as rezoning 
and all then would not be landlocked from your perspective? You 
know the parcel better than anyone.
    Mr. Bluff. Absolutely not. Absolutely not.
    Mr. Renzi. OK. I appreciate that.
    One other just real quick question, Ms. Roder. When you 
talk about the appraisal process and you talk about not having 
it disclosed ahead of time, the Forest Service would be able to 
pick from a credible appraiser, certified appraiser, that would 
then have the objective to go out and conduct the public 
interest, in the public good. Are you suggesting that they 
don't have the ability to do that?
    Ms. Roder. We are suggesting, Congressman, that there needs 
to be more openness in the process. We do need to have 
independent appraisals so that we can make sure that lands are 
being properly valued, and as was found by the GAO, they were 
having a hard time accomplishing that goal, and as such, we 
think that an independent appraisal process needs to occur and 
it needs to be revealed to taxpayers prior to land exchanges.
    Mr. Renzi. Ms. Roder--
    Mr. Rey. Can I offer a clarification there, because I think 
we are missing something.
    Mr. Renzi. Yes, sir.
    Mr. Rey. First of all, per the GAO recommendation, we do 
use independent appraisals and we do use the Uniform Federal 
Rules of Appraisal. Second, appraisals are never made available 
to the public in any land exchange until they are completed and 
reviewed, because preliminary information may be wrong or, in 
some cases, sensitive.
    Mr. Renzi. Thank you. Fundamentally, what the argument goes 
to, I think, is that somehow the public would be ripped off on 
this deal. What I need to really point out for the record is 
that the pristine lands that are owned by Yavapai Ranch right 
now, again, the largest stand of Ponderosa pine forest in 
Northern Arizona, could be developed right now. Golf courses 
could be put in. All the water use up there--the Ruskin family 
owns 24 pond and well sites and they are willing to give up 21 
of them and only retain three, in exchange for impacted land 
along a freeway, impacted land that has a dump and a shooting 
site, a little part-time shooting range right now, and it has, 
when I went up there, people who camp out on it.
    And so I want at least the element of truth for a guy who 
walked the parcel three times and met with groups on both sides 
and came into this only trying to look at what would be the 
greater good. It needs to be understood that we are talking 
about exchanging pristine land which is next to a wilderness 
area, the Juniper Wilderness Area, in exchange for impacted 
land.
    And with that, I want to thank all of you for your 
testimony, for coming here to Washington, D.C., for your 
expertise and for a good debate. Thank you so much.
    We will take a break now for votes.
    [Recess.]
    Mr. Renzi. Thank you. I appreciate your patience coming 
back from that vote.
    We are going to introduce the second panel, testifying on 
H.R. 3247.
    Mr. Renzi. On panel two, we have Congressman Tom Tancredo 
of the Sixth District of the State of Colorado; Mr. Mark Rey of 
the United States Department of Agriculture; Mr. Larry 
Parkinson, Deputy Assistant Secretary for Law Enforcement and 
Security, U.S. Department of Interior; Mr. Larry Smith, 
Executive Director of Americans for Responsible Recreational 
Access; and Mr. Dave Jenkins, Director of Conservation and 
Public Policy, American Canoe Association.
    I welcome you all to what is almost this afternoon. Thank 
you for coming.
    Let me remind the witnesses on Committee rules. You have 5 
minutes for your oral testimony. I would like to now begin by 
recognizing the gentleman from Colorado, Mr. Tancredo.

STATEMENT OF HON. THOMAS TANCREDO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Tancredo. Thank you, Mr. Chairman. Thank you for 
holding this hearing today on H.R. 3247, the Trail 
Responsibility and Accountability for the Improvement of Public 
Lands Act of 2003. I am pleased of the number of cosponsors on 
this Committee, including Mr. Udall and Mr. Beauprez, along 
with other gentlemen on the Committee, and I want to thank you 
for that cosponsorship.
    Those of us privileged to represent Western States here in 
Congress know of the long-running battle between Federal land 
agencies and private interests. This is especially so since the 
Federal Government is the landlord of so much of the land in 
the Western part of the United States.
    Historically, issues of contention have often arisen 
surrounding grazing rights, mining and drilling rights. Today, 
these public land debates are often characterized by access to 
public lands for different recreational activities, all of 
which have an enormous and positive economic impact on the 
communities we represent.
    In the last 20 years, Americans have found new ways to 
enjoy their public lands and waterways beyond just hiking, 
horseback riding, or power boats. Today, mountain bikers, ATVs, 
SUVs, and snowmobiles also use our public lands. Many of these 
vehicles represent the only access to the great outdoors to a 
whole segment of our population, like senior citizens and the 
disabled, that might not otherwise be able to get out and visit 
the beautiful places like the Pike National Forest in my 
district.
    The economic impact for Colorado of these kinds of 
recreational activities contributes more than $200 million a 
year to our economy, creating more than 3,100 jobs. With those 
economic benefits, however, there have come conflicts and some 
irresponsible people.
    No one here will say that there haven't been problems with 
certain individuals and groups abusing, misusing, and in some 
instances destroying valuable property on our Federal lands. 
Over the Memorial Day weekend in 1997, vandals destroyed a 
national treasure, the Eye of the Needle, an 11-foot sandstone 
arch on BLM land in the Upper Missouri National Wild and Scenic 
River Area in Montana that was so impressive that Lewis and 
Clark wrote about it in their journals. Because of the actions 
of these thoughtless people, future generations have been 
deprived of the opportunity to view the unique natural wonder.
    Two years ago, on New Year's Eve, thousands of off-road 
enthusiasts convened at the Imperial Sand Dunes Recreational 
Area in California. One Forest Service ranger described the 
situation this way, quote, ``We don't want to send any officers 
down there because we can't be sure it is safe.'' In describing 
the problem, one off-road enthusiast put it this way. ``It is a 
total weekend warrior thing. A handful screw up for the 
masses.'' For the good of our public lands and for those 
citizens who behave responsibly, we cannot ignore such 
instances.
    I visited the Coronado National Forest, the Organ Pipe 
Cactus National Monument in Southern Arizona. These places are 
home to some of the most spectacular terrain and wildlife 
habitat in the American Southwest. They are also home to some 
of the worst vandalism you can imagine. Graffiti covers rock 
formations and cactus. Garbage is strewn across the desert. 
Unauthorized roads and trails mar the landscape. If we are to 
preserve these areas for future generations, we must make those 
who intentionally destroy them pay a price.
    As I have said, outdoor recreation on our public lands and 
waterways will continue to grow, and it should. It is now time 
we equip our land managers with the means to appropriately and 
even-handedly enforce land use regulations. The TRAIL Act 
accomplishes this by creating consistent fines and penalties 
among all of our land use agencies. In doing so, the bill also 
increases fines and penalties substantially for people who 
knowingly engage in inappropriate behavior.
    The bill also allows the agencies to retain the fines that 
are collected for repair and maintenance on these public lands 
and for outreach and educational programs to train outdoor 
enthusiasts on what is and what is not appropriate behavior.
    Mr. Chairman, I look forward to hearing from the witnesses 
today. If they have suggestions on how we might improve this 
legislation, I hope they will share these ideas with us. I also 
hope that in the not-too-distant future, our Committee will 
report this measure to the full House for its consideration. 
Our public lands are too important to be left unattended by 
inadequate penalties for inappropriate behavior. The law 
enforcement ability of our Federal land agencies needs to be 
strengthened, and I believe H.R. 3247 is a major step in that 
direction.
    Mr. Renzi. I thank the gentleman from Colorado.
    [The prepared statement of Mr. Tancredo follows:]

    Statement of The Honorable Thomas Tancredo, a Representative in 
           Congress from the State of Colorado, on H.R. 3247

    Mr. Chairman:
    Thank you for holding this hearing today on H.R. 3247, the Trail 
Responsibility and Accountability for the Improvement of Lands Act of 
2003. I am pleased that you have joined in cosponsoring this measure 
along with our colleagues from Colorado, Mr. Udall and Mr. Beauprez, 
along with many of our other colleagues on this Committee from both 
sides of the aisle. I also want to recognize and thank you for the past 
work you have done on similar enforcement legislation. Today's 
legislation was built upon your work.
    Those of us privileged to represent western states here in the 
Congress know of the long-running battle between Federal land agencies 
and private interests. This is especially so since the Federal 
Government is the landlord of so much of the land in the western part 
of the U.S.
    Historically, issues of contention have often surrounded grazing 
rights, mining and drilling rights. Today, issues of contention now 
include the matter of access to public lands for recreational 
activities--activities have an enormous and positive economic impact on 
the communities that we represent.
    In the last twenty years, Americans have found new ways to enjoy 
their public lands and waterways beyond just hiking, horseback riding, 
or powerboats. Today, mountain bikes, ATVs, SUVs, snowmobiles, and 
personal watercraft are used in a variety of ways on our public lands 
and waterways. Many of these vehicles represent the only access to the 
great outdoors to a whole segment of our population--folks like senior 
citizens and the disabled--that might not otherwise be able to get out 
and visit beautiful places like the Pike National Forest in my 
district.
    In some states like California, registrations of off-highway 
vehicles have doubled in the last 20 years. At the same time, we have 
seen an increasing amount of public lands placed ``off limits'' to this 
kind of recreation. The growth in the popularity of this activity, 
coupled with a reduction in the amount of available land to pursue it, 
has led to conflict and a challenge for public lands managers.
    In my own State of Colorado, outdoor recreation has become 
increasingly popular among our citizens. From 1995-2003, snowmobiling 
has grown by more than 100%, jet skiing by nearly 100%, and horseback 
riding by 30%, to name just a few types of outdoor sporting activities 
on the rise. These statistics simply confirm what many of us already 
know: Coloradoans love to be outdoors and to enjoy our beautiful 
State--and one thing is certain: This type of recreation will only 
increase in the coming years.
    The economic impact for Colorado of these types of recreational 
activities is revealing. OHV use in Colorado contributes more than $200 
million to our economy, creating more than 3,100 jobs. More than 
130,000 Colorado resident and non-resident households use motorized 
vehicles for recreation in our State.
    The economic impact of white-water rafting jumped from $75 million 
in 1993 to $125 million in 2001. Bicycling generates over $1 billion, 
and ski and snowboard equipment and apparel expenditures exceed $1.1 
billion annually in our State. I could go on with more statistics, but 
the important thing to remember is that outdoor recreation is important 
to Colorado; it is important for the physical well-being of our 
citizens and it is important to the economic well-being of our State. 
In short, Coloradoans cannot afford to ignore outdoor recreation issues 
on our federal lands.
    No one here will say that there haven't been problems with certain 
individuals and groups abusing, misusing and, in some instances, 
destroying valuable property on our Federal lands. Over the Memorial 
Day weekend in 1997, vandals destroyed a national treasure--the Eye of 
the Needle, an 11-foot sandstone arch on BLM land in the Upper Missouri 
National Wild and Scenic River area in Montana that was so impressive 
that Lewis and Clark wrote about it in their journals. Because of the 
actions of these thoughtless people, future generations have been 
deprived of the opportunity to view this unique natural wonder.
    Two years ago on New Year's Eve, thousands of off-road enthusiasts 
convened at the Imperial Sand Dunes Recreation Area in California. One 
Forest Service Ranger described the situation this way: ``We don't want 
to send any officers down there because we can't be sure they'd be 
safe.'' In describing the problem, one off-road enthusiast put it this 
way: ``It's a total weekend warrior thing. A handful to screw it up for 
the masses.'' For the good of our public lands and for those citizens 
who behave responsibly, we cannot ignore such instances.
    As I have said outdoor recreation on our public lands and waterways 
will continue to grow--and it should. It is now time we equip our land 
managers with the means to appropriately and evenhandedly enforce land 
use regulations. The TRAIL Act accomplishes this by creating consistent 
fines and penalties among all of our land use agencies. In doing so, 
the bill also increases fines and penalties substantially for people 
who knowingly and willfully engage in inappropriate behavior. The bill 
also allows the agencies to retain the fines that are collected for 
repair work and maintenance on these public lands, and for outreach and 
educational programs to train outdoor enthusiasts on what is and what 
is not appropriate behavior.
    Mr. Chairman, I look forward to hearing from our witnesses today. 
If they have suggestions on how we might improve this legislation, I 
hope they will share those ideas with us. I also hope that in the not 
too distant future, our Committee will report this measure to the full 
House for its consideration. Our public lands are too important to be 
left unattended by inadequate penalties for inappropriate behavior. The 
law enforcement ability of our federal land agencies needs to be 
strengthened, and I believe H.R. 3247 is a major step in that 
direction.
                                 ______
                                 
    Mr. Renzi. Staying within the Great Mountain State of 
Colorado, cosponsor of the bill, Mr. Udall.

STATEMENT OF HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF COLORADO

    Mr. Mark Udall. Thank you, Mr. Chairman, and I want to 
again express my appreciation to you for holding this hearing 
on H.R. 3247.
    Let me begin by saying that I am glad my colleague from the 
great State of Colorado, Mr. Tancredo, has introduced the bill. 
I joined as a cosponsor because I also want to improve the 
ability of our land-managing agencies to adequately enforce the 
rules that apply to uses of the Federal lands.
    I introduced a related bill, H.R. 751, the Responsible Off-
Road Vehicle Enforcement and Response Act, and if you run out 
the acronym, that results in ROVER being the acronym for that 
particular bill. My bill is narrow in scope. It deals only with 
the enforcement of the regulations that apply to using vehicles 
on national forest lands and public lands managed by the BLM.
    H.R. 3247 goes much further. In addition to the forests and 
BLM lands, H.R. 3247 also applies to lands managed by the 
National Park Service and the refuges managed by the Fish and 
Wildlife Service. It addresses also the enforcement of all 
regulations, not just those related to the use of vehicles.
    I do think enforcement of regulations is an area where 
legislation can be helpful. However, we need to recognize that 
it is only one part of a bigger picture. Even more than new 
legislation, it seems to me the agencies need more resources, 
more money and more people, if we want them to do a better job, 
and I intend to explore that particular matter with some of the 
witnesses as well as to ask about some of the differences 
between my bill and my colleague, Mr. Tancredo's bill.
    Mr. Chairman, if I might, in today's Rocky Mountain News, 
there is a letter from the Supervisor of the Pikes and Isabel 
National Forest in Colorado. The letter discusses ``mud-
bogging,'' quote-unquote, and other activities that violate 
Forest Service rules, including the indiscriminate dumping of 
trash and discharging firearms in ways that can endanger people 
for miles around. This is the sort of thing that prompted me to 
introduce my bill, H.R. 751, and to cosponsor Congressman 
Tancredo's bill, H.R. 3247. I would ask unanimous consent that 
the letter be included at an appropriate place in the record of 
today's hearing and would yield back whatever time I have 
remaining.
    Mr. Renzi. Without objection.
    [The letter submitted by Mr. Mark Udall follows:]

From the Rocky Mountain News

Letters to the Editor

October 21, 2003

              Seeking solutions to destruction in forests

    One of the pleasures of living along the Front Range in Colorado is 
being able to gaze up at the mountains to the west and idly dream of 
being in the green forest, with clean running water, clean air and just 
getting away from it all. But there's something happening in that 
forest that is disturbing.
        They call it ``mud bogging.'' After 10 or 12 four-wheel-drive 
        vehicles have tried to make it through a wet meadow, it's 
        neither lush nor green anymore. After several more attempts, it 
        is nothing but a worn-out mud hole.

        These private natural-resources demolition teams move over a 
        few feet and try it again.
    These mud holes can be very costly for the Forest Service to clean 
up and revegetate, if even possible.
    Often times, adjacent to the mud hole, is an area where other 
equally disturbing activities take place: indiscriminate. shooting and 
the dumping of trash. In a few cases, there has been no natural 
backstop to this shooting, which could put people several miles away in 
jeopardy. This is not what you or I envision as we gaze up at the 
mountains.
    Policing these areas to stop the activity works, but perpetrators 
often merely move to a new area. Policing the whole Rampart Range at 
one time is virtually impossible. We must have a new means of managing 
these degrading and dangerous activities.
    Everyone should be able to enjoy these precious public lands. It 
should be a place to ``get away from it all'' and feel safe. It's the 
Forest Service's responsibility to provide such an environment. 
Therefore, I cannot ignore the problem, but must provide a solution. 
Coloradans will no doubt hear more about this in the future as we 
solicit their opinions and ideas.
    In the meantime, if anyone sees people engaging in these 
activities, please report the incident and the description of any 
vehicles to the nearest Forest Service Ranger District Office or County 
Sheriff's Office.

Bob Leaverton
Fo rest Supervisor, Pike/San Isabel National Forests and Cimarron and 
Comanche National Grasslands
                                 ______
                                 
    Mr. Renzi. We move now to an opening statement by Mr. Mark 
Rey. Mr. Rey?

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
   ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE, ON H.R. 3247

    Mr. Rey. Thank you, Congressman Renzi. The Department of 
Agriculture supports H.R. 3247. We have some technical changes 
that we would like the Subcommittee to consider.
    H.R. 3247 makes consistent the penalties for violating 
regulations of the National Park Service, the Bureau of Land 
Management, the Fish and Wildlife Service, and the Department 
of the Interior, and the Forest Service and the Department of 
Agriculture. We support such a concept as we work closely with 
our fellow land management agencies in enforcement activities, 
including local cross-designations of authority.
    Consistent enforcement authority would make this 
cooperation much easier, aid the public in understanding 
regulations and penalties, and assist prosecutors and courts 
that must handle cases arising from different Federal 
jurisdictions. The bill would change the penalty for violation 
of our regulations from one level of offense to two levels, and 
we will work with the Department of Justice and the Federal 
courts to best ensure advantages of consistent criminal 
penalties are fulfilled upon passage.
    I would be happy to respond to any of your questions after 
the other panel members have spoken.
    Mr. Renzi. Mr. Rey, thank you for your testimony.
    I move now to Mr. Parkinson.

 STATEMENT OF LARRY R. PARKINSON, DEPUTY ASSISTANT SECRETARY, 
 LAW ENFORCEMENT AND SECURITY, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Parkinson. Thank you, Mr. Chairman. I will make this 
brief, submit my written statement for the record, and then 
open it up to questions.
    We strongly support the goal of H.R. 3247. As Mr. Rey 
indicated, we also have some suggested technical amendments 
that we think would improve the legislation. We look forward to 
working with the Committee and the Department of Agriculture 
and the Department of Justice to do that.
    This has two themes to it. One is consistency in law 
enforcement authority and the second is flexibility in law 
enforcement authority. Those are both virtues that we strongly 
support.
    The Department of Interior has three bureaus that are 
primarily responsible for enforcing these regulations, as was 
indicated in the opening statements, BLM, the National Park 
Service, and the Fish and Wildlife Service, and of those three, 
we have three different penalty structures. Conceptually, that 
doesn't make a lot of sense. The regulations that those three 
agencies are enforcing are comparable and I think ought to be 
treated comparably.
    One other point that I would just highlight in my opening 
remarks is we do urge the Committee to adopt the ``knowingly'' 
standard as opposed to the ``knowing and willful'' standard 
that is now set forth in the legislation. We think the best 
model that exists out there is the model that exists currently 
in the National Wildlife Refuge System Administration Act, 
which provides both Class A and Class B misdemeanors, but has a 
``knowing'' standard but no ``willful'' standard.
    Thank you very much.
    Mr. Renzi. Thank you, Mr. Parkinson.
    [The prepared statement of Mr. Parkinson follows:]

  Statement of Larry R. Parkinson, Deputy Assistant Secretary for Law 
Enforcement and Security, U.S. Department of the Interior, on H.R. 3247

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today. My name is Larry Parkinson and 
I am the Deputy Assistant Secretary for Law Enforcement and Security at 
the Department of the Interior. I am here to present the Department's 
views on H.R. 3247--the Trail Responsibility and Accountability for the 
Improvement of Lands Act of 2003.
    As discussed further below, the Department agrees that our land 
management bureaus should have consistent enforcement authority, and we 
strongly support the goal of H.R. 3247. The investigative and 
enforcement simplicity offered through the option of applying a Class A 
or Class B misdemeanor, as proposed in H.R. 3247, is an attractive tool 
for law enforcement personnel. However, we would like to work with the 
U.S. Forest Service in the Department of Agriculture, as well as the 
Department of Justice, to provide the Subcommittee with specific 
changes to ensure that the authority provided by this bill does not 
conflict with or, duplicate, our existing authorities.
    As currently drafted, H.R. 3247 is intended to amend the existing 
enforcement authorities of the National Park Service (Park Service), 
the Bureau of Land Management (BLM), and the U.S. Fish and Wildlife 
Service (Fish and Wildlife Service), as well as the Forest Service, to 
make consistent the ability of these bureaus to charge misdemeanor 
offenses for violations of bureau rules and regulations.
    As noted above, the Department agrees that consistent enforcement 
authority serves important and useful interests. For example, currently 
the BLM and Park Service operate under different rules for criminal 
penalties for violations of rules regulating the use of fire by 
visitors and others on their respective lands. For the NPS, these 
violations are classified as Class B misdemeanors, which may result in 
a fine of up to $5,000 or up to six months in prison. Class B 
violations are strict liability in nature, which means that intent need 
not be proved. However, under the current enforcement provisions of the 
Federal Land Policy and Management Act, BLM penalties for violations of 
land use regulations are set as Class A misdemeanors for all ``knowing 
and willful'' violations; BLM does not currently have authority to 
charge for a Class B misdemeanor. Therefore, similar violations of 
rules regulating the use of fire by visitors and others on public lands 
are Class A misdemeanors for the BLM, which may result in a fine of up 
to $100,000 or imprisonment for up to one year and requires a 
demonstration that the party knowingly violated the law.
    The changes advanced by this legislation will also further the 
economy of law enforcement resources. Under Class A misdemeanor 
violations, a defendant has a right to a jury trial, which frequently 
results in dismissed cases as prosecutors are deterred from proving a 
``knowing and willful'' intent, and judges, who already have large 
dockets, are less likely to take on lengthy and expensive jury cases. 
In contrast, under a Class B misdemeanor offense, a citation can be 
used as the charging instrument, and defendants can be tried directly 
by a Magistrate Judge. The ability to apply a lower lever penalty, as 
provided in H.R. 3247, for violations that are not committed in a 
``knowing and willful'' manner will also simplify investigative and 
enforcement tasks that officers must currently undertake compared to 
that required when prosecuting Class A misdemeanor offenses.
    In addition, we urge the Committee to review the intent language to 
determine whether it is necessary to include a ``willful'' element in 
addition to the ``knowing'' element. We would caution against such an 
inclusion and understand that Department of Justice will be providing a 
views letter that will specifically address this issue, as well as 
other issues. We intend to work with the Forest Service and Department 
of Justice to provide specific language addressing these concerns.
    As noted above, we would also like to work with the Forest Service 
and the Department of Justice to provide the Subcommittee with specific 
changes to ensure that this new authority accomplishes the intended 
result and does not conflict with or duplicate our existing 
authorities.
    For example, while the substance of the provisions in H.R. 3247 
nearly mirror those provided to the Fish and Wildlife Service in the 
1998 amendments to the National Wildlife Refuge System Administration 
Act, Pub. Law No. 105-312, the Fish and Wildlife Service's current 
language is structured so that Fish and Wildlife law enforcement 
personnel can charge an offender under two alternative provisions, an 
option that would not be available under H.R. 3247 as currently 
drafted.
    The Department also supports the changes made by Section 3 of H.R. 
3247, which calls for the use of fines collected by the affected 
agencies for the limited purposes of improvement, protection, or 
rehabilitation work on public lands made necessary by the actions which 
led to the fine, as well as to increase public awareness of regulations 
and other requirements regarding use of the public lands. The 
provisions are limited in nature and require that excess funds be 
transferred to miscellaneous receipts and cannot be retained by the 
agency.
    Again, Mr. Chairman, I want to thank you and the Members of this 
Subcommittee for your continued interest in our law enforcement issues. 
We at the Department look forward to continuing positive dialog to 
improve our federal law enforcement capabilities. This concludes my 
statement and I am happy to answer any questions that you might have.
                                 ______
                                 
    Mr. Renzi. Mr. Larry Smith?

       STATEMENT OF LARRY E. SMITH, EXECUTIVE DIRECTOR, 
         AMERICANS FOR RESPONSIBLE RECREATIONAL ACCESS

    Mr. Smith. Thank you, Mr. Chairman. I serve as Executive 
Director of ARRA, Americans for Responsible Recreational 
Access. ARRA was founded in June of 2000 because of a growing 
concern that opportunities for recreational activities on 
public lands and waterways were being eliminated by the closure 
of many of these areas to the American people. ARRA is 
comprised of a number of national, State, and regional trade 
associations, as well as thousands of Americans who have 
registered on the ARRA website.
    First, I want to thank Mr. Tancredo for sponsoring this 
legislation and for Mr. Udall of Colorado for cosponsoring it, 
and thank you, Mr. Chairman, for holding the hearing. It has 
been a pleasure to work with your respective personal staffs 
and the Subcommittee staff in the development of this 
legislation.
    Every single day, more and more Americans are seeking 
recreational opportunities on our public lands and waterways. 
As our cities and suburbs become more congested, Americans are 
increasingly turning to public lands as a means to relieve the 
stress of everyday living. Maintaining access to these public 
lands, therefore, becomes an important element for the health 
and well-being of millions of Americans.
    We are not here today to say to this Subcommittee that 
there aren't problems with some individuals behaving 
inappropriately when visiting public lands. Let me be clear 
about this. Problems do exist. However, all too often, a simple 
response to such problems on the part of some interest groups 
is to advocate denying access to these public lands for all 
Americans and not just to those few who choose not to be good 
stewards of these lands.
    Closing access to public lands does nothing to address the 
real problem of inappropriate behavior. In fact, as more areas 
are designated off-limits to all Americans, a greater 
concentration of recreational activities and overuse will 
likely occur in those areas still remaining accessible. 
Therefore, until the problem of inappropriate behavior is 
directly addressed, all public lands remain threatened.
    Clearly, the present day response of closing public lands 
is a flawed policy. All this policy does is penalize all 
Americans for the misdeeds of a few. Fortunately, H.R. 3247 
seeks a different solution. This legislation seeks to penalize 
only those individuals or groups who choose to misuse our 
public lands and not those who abide by land use regulations. 
We believe this legislation strikes an appropriate balance 
between those who might unknowingly violate land use 
regulations and those who willfully and knowingly seek to do 
harm.
    The penalties and fines for Class B and Class A 
misdemeanors are scaled appropriately for the behavior 
associated with the purported violations. The greater the 
damage to our public lands, then the stiffer the penalty should 
be to those who cause such damage. H.R. 3247 allows for 
consistent penalties among the four major agencies responsible 
for the stewardship of our public lands.
    As members of this Subcommittee know, it is often difficult 
for a visitor to know when U.S. Forest Service land ends and 
BLM land begins. Does the present day inconsistency of fines 
and penalties among these agencies mean that the land holdings 
of one agency are less or more important to the American 
people? We think not. We are pleased that this legislation 
seeks to remedy this inconsistency.
    More often than not, land agencies lack adequate funds to 
restore, repair, or maintain the public lands that are 
extensively used by the general public. Under this legislation, 
agencies will be able to use the fines collected for 
restoration work as well as to educate the general public on 
what is and is not appropriate behavior when visiting public 
lands.
    Since our inception, we have taken the position that all 
recreation activities do not belong in all areas of public 
lands. We believe that there are areas that truly should be 
designated as wilderness areas, as well as other areas that 
should be designated for certain types of recreational 
activities. Having said that, we also firmly believe that the 
Federal land agencies need to do a better job of providing a 
broader range of recreational opportunities so more Americans 
can enjoy their public lands.
    As we have said, we find it distressing that certain public 
interest groups approach public lands management issues by 
advocating closure rather than addressing the issue of abuse or 
misuse. When someone breaks our traffic laws, society's 
response is not to ban all traffic on the highways. Rather, we 
increase enforcement and we prosecute law breakers. The same 
should hold true for activities on Federal lands and waterways.
    Mr. Chairman, ARRA seeks to solve problems that inhibit 
public enjoyment of our public lands and waterways. We believe 
that public lands should be made available to all Americans 
regardless of age or physical well-being for their enjoyment 
and use in a responsible manner. With enhanced enforcement and 
stiffer penalties for those who disobey the rules of proper 
land use, our Federal land agencies should be able to pull down 
the ``Do not enter'' signs and replace them with signs that 
say, ``Welcome to your public lands.''
    Again, thank you for inviting us to participate. We would 
be happy to respond to any questions you or the other members 
might have.
    Mr. Renzi. Mr. Smith, thank you for your substantive 
remarks, well researched. I am grateful.
    [The prepared statement of Mr. Smith follows:]

             Statement of Larry Smith, Executive Director, 
      Americans for Responsible Recreational Access, on H.R. 3247

    Mr. Chairman:
    My name is Larry Smith and I serve as the Executive Director of 
ARRA, Americans for Responsible Recreational Access. ARRA was founded 
in June of 2000 because of a growing concern that opportunities for 
recreational activities on public lands and waterways were being 
eliminated by the closure of many of these areas to the American 
public.
    ARRA is comprised of the following organizations: the American 
Horse Council, the Motorcycle Industry Council, the Specialty Vehicle 
Institute of America, the American Council of Snowmobile Associations, 
the National Marine Manufacturers Association, the American 
Motorcyclist Association, the Personal Watercraft Industry Association 
and the National Off-Highway Vehicle Conservation Council. In addition, 
there are a number of state and regional organizations affiliated with 
ARRA.
    First, I want to thank Mr. Tancredo for sponsoring this legislation 
and to you, Mr. Chairman, for cosponsoring this measure and for holding 
this important hearing. It has been a pleasure to work with your 
respective personal staffs and with the Subcommittee staff in the 
development of this legislation.
    Every single day, more and more Americans are seeking recreational 
opportunities on our public lands and waterways. As our cities and 
suburbs become more congested, Americans are increasingly turning to 
public lands and waterways as a means to relieve the stress of everyday 
living. Maintaining access to these public lands, therefore, becomes an 
important element for the health and well-being of millions of 
Americans.
    We are not here today to say to this Subcommittee that there aren't 
problems when some individuals behave inappropriately when visiting 
public lands. Let me be clear about this--problems do exist. However, 
all too often, the simple response to such problems on the part of some 
interest groups is to advocate denying access to these public lands for 
all Americans and not just to those few who choose not to be good 
stewards of these lands.
    Closing access to public lands does nothing to address the real 
problem of inappropriate behavior. In fact, as more areas are 
designated ``off limits'' to all Americans, a greater concentration of 
recreational activities and overuse will likely occur in those areas 
still remaining accessible. Therefore, until the problem of 
inappropriate behavior is directly addressed, all public lands remain 
threatened.
    Clearly the present day response of closing public lands is a 
flawed policy. All this policy does is penalize all Americans for the 
misdeeds of a few. Fortunately, H.R. 3247 seeks a different solution. 
H.R. 3247 seeks to penalize only those individuals or groups who choose 
to misuse our public lands and not those who abide by land use 
regulations.
    We believe that H.R. 3247 strikes an appropriate balance between 
those who might unknowingly violate land use regulations and those who 
``willfully and knowingly'' seek to do harm. The penalties and fines 
for Class B and Class A misdemeanors are scaled appropriately for the 
behavior associated with the purported violation. The greater the 
damage to our public lands, then the stiffer the penalty should be to 
those who cause such damage.
    H.R. 3247 allows for consistent penalties among the four major 
agencies responsible for the stewardship of our public lands: the U.S. 
Forest Service, the Bureau of Land Management, the National Park 
Service and the U.S. Fish and Wildlife Service. As members of this 
Subcommittee know, it is often difficult for a visitor to know when 
U.S. Forest Service land ends and BLM land begins. Does the present day 
inconsistency of fines and penalties among these agencies mean that the 
land holdings of one agency are less or more important to the American 
people? We think not. We are pleased that this legislation seeks to 
remedy this inconsistency.
    More often than not, land agencies lack adequate funds to restore, 
repair or maintain public lands that are extensively used by the 
general public. Under this legislation, agencies will be able to use 
fines collected for restoration work as well as to educate the general 
public on what is and is not appropriate behavior when visiting public 
lands.
    Since ARRA's inception, we have taken the position that all 
recreational activities do not belong in all areas of public lands. We 
believe that there are areas that truly should be designated as 
wilderness areas as well as other areas that should be designated for 
certain types of recreational activities. Having said that, we also 
firmly believe that Federal land agencies need to do a better job of 
providing a broader range of recreational opportunities so more 
Americans can enjoy their public lands.
    As we have said, we find it distressing when certain public 
interest groups approach public lands management issues by advocating 
closure rather than addressing the issue of abuse or misuse. When 
someone breaks our traffic laws, society's response is not to ban all 
traffic on our highways. Rather, we increase enforcement and we 
prosecute lawbreakers. The same should hold true for activities on 
Federal lands and waterways. If penalties are insufficient to deter 
violators, then ARRA believes strengthening our laws and penalties is 
the proper course of action rather than embracing the closure of our 
Federal properties.
    Mr. Chairman, ARRA seeks to solve problems that inhibit public 
enjoyment of our public lands and waterways. We believe that public 
lands should be made available to all Americans regardless of age or 
physical well-being for their enjoyment and use in a responsible 
manner. With enhanced enforcement and stiffer penalties for those who 
disobey the rules of proper land use, our Federal land agencies should 
be able to pull down the ``Do Not Enter'' signs and replace them with 
signs that say ``Welcome to Your Public Lands.''
    Again, thank you for holding today's hearing and for inviting us to 
participate. We hope that the Resources Committee will report this 
measure to the House Floor for action by the entire House of 
Representatives. Doing so will be of benefit to all Americans who enjoy 
visiting our public lands.
    Mr. Chairman, I would be happy to respond to any questions that you 
or members of the Subcommittee might like to ask regarding ARRA's 
support for this legislation.
                                 ______
                                 
    Mr. Renzi. We will move now to Mr. Dave Jenkins of the 
American Canoe Association.

STATEMENT OF DAVID JENKINS, DIRECTOR OF CONSERVATION AND PUBLIC 
               POLICY, AMERICAN CANOE ASSOCIATION

    Mr. Jenkins. Thank you, Mr. Chairman, for allowing me this 
opportunity to address the Committee regarding H.R. 3247. The 
American Canoe Association is the nation's oldest and largest 
organization representing people who enjoy canoeing and 
kayaking. It has over 50,000 members nationwide, members who 
regularly depend on the nation's public lands and waters for 
recreation.
    Today, our public lands and waters are in higher demand 
than ever before. Much of this demand is related to the 
increasing popularity of outdoor recreation. Participating in 
kayaking, for example, up 182 percent over the past 7 years, is 
growing faster than any other outdoor activity. The popularity 
of other outdoor recreation activities, such as hiking, 
backpacking, mountain biking, and climbing, is also up 
significantly. As a result, people are flocking to these 
protected resources seeking a wide variety of recreational 
opportunities.
    The task of managing these resources to provide the public 
with quality recreational experiences, while at the same time 
safeguarding them for future generations, is a very challenging 
and increasingly difficult balancing act. It is a balancing act 
that depends on resource managers being able to effectively 
manage recreational use. Failure to adequately manage 
recreational use not only results in the degradation of the 
resource, it also leads to more user conflicts and reduces 
visitor satisfaction.
    One of the most difficult challenges facing managers and 
all of us who care about these places is the effective 
management of motorized recreation. Use of motorized vehicles, 
off-road vehicles in particular, is causing serious damage to 
our public land and waters. This damage includes erosion and 
other visual impacts to the landscape, sediment pollution in 
rivers and streams, damage to wetlands, and adverse impacts on 
wildlife. Motorized use is also encroaching the most on the 
recreational experiences of others by eliminating quiet and 
secluded areas and by emitting visible air and water pollution.
    Much of these motorized use impacts are the result of 
people failing to recreate responsibly, often in direct 
violation of the law. Whether I talk to managers from the 
Forest Service, the Park Service, or BLM, they all express the 
frustration and disillusionment at the enormity of this problem 
and at the lack of adequate resources for enforcement. It is 
common for the Forest Service and BLM to have one law 
enforcement agent covering more than a million acres of land.
    While I commend the sponsors of H.R. 3247 for trying to 
improve the enforcement of regulations, I am concerned that 
this legislation falls short of providing the full range of 
enforcement tools that our resource managers so desperately 
need. Addressing any inconsistencies in enforcement authority 
between agencies is certainly welcome, but there are bigger 
barriers to effective enforcement that also need addressing.
    One common theme I hear from resource managers is that the 
fines imposed are so low and the likelihood of getting caught 
so remote that those who intentionally violate regulations 
consider the fine as simply a potential user fee that they are 
more than willing to pay. In order for any kind of law 
enforcement to work, both the chances and consequences of 
getting caught have to be high enough to alter behavior. H.R. 
3247 is not going to get us there.
    I hope that more comprehensive legislation will be 
forthcoming. A significant increase in the number of agency law 
enforcement personnel is desperately needed, as are increases 
in the collateral schedule of fees for ORV violations. 
Provisions contained in H.R. 751, sponsored by Representative 
Udall, targeting fines and facilitating restitution by 
offenders merits serious consideration.
    Much of the problem of fines being too low to deter illegal 
behavior results not from a lack of authority to impose 
significant fines, but from an unwillingness by judges and 
others to assess fines that are sufficient to deter. For this 
reason, the establishment of mandatory minimum penalties and 
condemnation authority should also be considered, especially 
for specific types of violations that reflect intentional 
disregard for the law and for those who are repeat offenders.
    One common example of a violation that shows intentional 
disregard for the law is the removal of signs that declare a 
specific trail or area off-limits to motorized vehicles. By 
removing such signs, willful violators are able to disguise 
their own conduct as an innocent mistake.
    For ACA members and other self-reliant, nature-oriented 
outdoor enthusiasts, their enjoyment of public lands and waters 
is very dependent on the quality of the natural environment and 
its wildness. The desire to protect these resource qualities is 
why our members invest the time and effort to practice ``leave 
no trace'' ethics and to dedicate countless hours volunteering 
for stewardship projects.
    Please help us ensure that the irresponsible, destructive, 
and illegal actions of some are not allowed to ruin the outdoor 
recreation experience for the rest of us.
    I have two newspaper articles that illustrate common 
enforcement problems and an editorial from the Denver Post that 
I ask be included in the record. I thank you and will be glad 
to answer any questions.
    Mr. Renzi. Without objection. Thank you for your testimony.
    [The prepared statement of Mr. Jenkins follows:]

Statement of David Jenkins, Director of Conservation and Public Policy, 
                American Canoe Association, on H.R. 3247

    Thank you for allowing me this opportunity to address the Committee 
regarding H.R. 3247, the Trail Responsibility and Accountability for 
the Improvement of Lands (TRAIL) Act. The American Canoe Association is 
the nation's oldest and largest organization representing people who 
enjoy canoeing, kayaking and rafting. It has over 50,000 members 
nationwide, members who regularly depend on the nation's public lands 
and waters for recreation. While these members belong to the American 
Canoe Association because of their interest in canoeing and kayaking, 
many of them also access our public lands to hike, backpack, ski, 
climb, hunt and fish.
    Today our public lands and waters are in higher demand than ever 
before, and much of this demand is related to the increasing popularity 
of outdoor recreation. Participation in kayaking for example, up 182% 
over the past seven years, is growing faster than any other outdoor 
activity--on land or water. The popularity of other outdoor recreation 
activities such as hiking, backpacking, mountain biking, and climbing 
is also up significantly. As a result, people are flocking to these 
protected resources seeking a wide variety of recreational 
opportunities.
    The task of managing these resources to provide the public with 
quality recreational experiences, while at the same time safeguarding 
them for future generations, is a very challenging and increasingly 
difficult balancing act. It is a balancing act that depends on resource 
managers being able to effectively manage recreational use. Failure to 
adequately manage recreational use not only results in the degradation 
of the resource, it also leads to more user conflicts, and reduces 
overall visitor satisfaction.
    One of the most difficult challenges facing managers, and all of us 
who care about these places, is the effective management of motorized 
recreation. Use of motorized vehicles, off-road vehicles (OHV) in 
particular, is causing very serious damage to our public lands and 
waters. This damage includes erosion and other visual impacts on the 
landscape, sediment pollution in rivers and streams, damage to 
wetlands, and adverse impacts on wildlife. Motorized use is also 
encroaching the most on the recreational experiences of others, by 
eliminating quite and secluded areas and by emitting visible air and 
water pollution.
    Much of these motorized use impacts are the result of people 
failing to recreate responsibly, often in direct violation of the law. 
Whether I talk to resource managers from the USDA Forest Service, the 
National Park Service or the Bureau of Land Management (BLM), they all 
express frustration and disillusionment at the enormity of this 
problem, and at the lack of adequate resources for enforcement. It is 
common for the Forest Service and BLM to have one law enforcement agent 
covering more than a million acres of land.
    While I commend the sponsors of H.R. 3247 for trying to improve the 
enforcement of regulations, I am concerned that this legislation falls 
short of providing the full range of enforcement tools that our 
resource managers so desperately need. Addressing any inconsistencies 
in enforcement authority between agencies is certainly welcome, but 
there are far bigger barriers to effective enforcement that also need 
addressing.
    One common theme I hear from resource managers is that the fines 
imposed are so low, and the likelihood of getting caught so remote, 
that those who intentionally violate regulations consider the fine as 
simply a potential user fee that they are willing to pay. In order for 
any kind of law enforcement to work, both the chances and consequences 
of getting caught have to be high enough to alter behavior. H.R. 3247 
alone is not going to get us there.
    I hope that more comprehensive legislation will be forthcoming. A 
significant increase in the number of agency law enforcement personnel 
is desperately needed, as are increases in the collateral schedule of 
fees (stiffer penalties) for OHV violations. Provisions contained in 
H.R. 751, a bill sponsored by Representative Udall, which apply fines 
directly to enforcement needs and facilitate restitution by offenders 
merit serious consideration.
    Much of the problem of fines being too low to deter illegal 
behavior results, not from a lack of authority to impose significant 
fines, but from an unwillingness by judges and others to impose fines 
sufficient to deter illegal behavior. For this reason the establishment 
of mandatory minimum penalties and condemnation authority should also 
be considered, especially for specific types of violations that reflect 
intentional disregard for the law, and for those who are repeat 
offenders.
    One common example of a violation that shows intentional disregard 
for the law is the removal of signs that declare a specific trail or 
area off-limits to motorized vehicles. By removing such signs, willful 
violators are able to disguise their own conduct as an innocent 
mistake. Another clearly willful violation is ``mud-bogging,'' the 
increasingly prevalent practice of tearing up fragile meadows, wetlands 
or streambeds with four-wheel drive vehicles--a practice that often 
leaves ruts up to 6 feet deep.
    The damage done to the resource by such actions and the costs to 
the public cannot be tolerated. At least 60,000 miles of ``ghost 
roads'' have already been carved out of national forests alone. An 
Associated Press story from this past July noted ``A brief drive 
through the Umatilla National Forest in northeastern Oregon turns up at 
least a dozen large mud bogs visible from the dirt road. One year-old 
site is scarred by tire ruts 19 inches deep that have yet to sprout new 
grass.'' It also notes how a Forest Service law enforcement officer has 
seen his patrol area more than double in recent years to more than 1.2 
million acres.
    For ACA members and other self-reliant, nature-oriented outdoor 
enthusiasts, their enjoyment of public lands and waters is often 
dependent on the quality of the natural environment and its wildness. 
Having clean air and water, seeing wildlife, listening to the sounds of 
nature and escaping the noise of everyday life are essential parts of 
their recreational experience. The desire to protect these resource 
qualities is why our members invest the time and effort to practice 
Leave No Trace ethics and to dedicate countless hours volunteering for 
stewardship projects.
    Please help us ensure that the irresponsible, destructive and 
illegal actions of some are not allowed to ruin the outdoor recreation 
experience for the rest of us who recreate responsibly. I will be glad 
to answer any questions.
                                 ______
                                 
    [NOTE: The attachments submitted by Mr. Jenkins were 
copyrighted and have been retained in the Committee's official 
files.]
    Mr. Renzi. We will move now to questions from the members, 
5-minute questions beginning with the gentleman from Colorado 
and author of the legislation, Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman.
    I have a question for Mr. Parkinson. If you could, please, 
expand a little bit on what you mean by, or what is the 
significance of separating out knowing and willful and just 
using knowing. What are the implications of that? Why do you 
support that?
    Mr. Parkinson. Mr. Tancredo, the implications of that is 
that if you require knowing and willful, it increases the 
burden of proof for the prosecution, and let me walk through 
that a little bit. Knowingly, if the element of the offense is 
that it was a knowing violation, that simply requires proof of 
the facts that constitute the offense.
    Mr. Tancredo. I see.
    Mr. Parkinson. What the government must show in that case 
is that the defendant was aware of his acts, the defendant 
performed those acts intentionally, and third, that the 
defendant did not act by mistake or accident. Not a high burden 
of proof for the prosecution.
    Willfully raises the burden of proof and that requires, in 
addition to what I mentioned, that would also require the 
government to prove that the defendant specifically intended to 
violate the law, and getting into someone's head, as a former 
prosecutor, I can safely testify that when you add that added 
mental element, state of mind element, it does increase the 
burden of proof and makes it harder to penalize those who 
commit the offense. So that is fundamentally the issue.
    Mr. Tancredo. Thank you. You are shaking your head, Mr. 
Rey. You agree with that observation?
    Mr. Rey. Yes. We have the same observation, the same view.
    Mr. Tancredo. Thank you very much.
    Mr. Jenkins, in your testimony, there are certainly aspects 
of it with which I can agree and, I guess in particular, your 
desire to increase the number of people who are out there on 
the line to try and identify those folks who are violating the 
law. I certainly will support that and do support it.
    I will also note that we had another bill here at a 
different time. I brought a bill forward to increase the 
penalties for those who knowingly and willfully violated the 
campfire bans and did have a minimum penalty as a part of it 
and the folks on the other side of the aisle here opposed it.
    In this case, I am trying to look at what we would be 
gaining by doing that. There are concerns that have been raised 
by folks in the Service about the need for greater flexibility 
here. I must admit that someone wanders off of a trail, even 
knowingly wanders off a trail and commits some damage, I don't 
know that I can put that in the same category as trying to burn 
down the whole forest. But I appreciate your concerns and there 
are certain aspects of it, as I say, that I fully intend to 
support, given the opportunity, and that is an increased number 
of personnel.
    I have no other questions, Mr. Chairman.
    Mr. Renzi. I thank the gentleman.
    The gentleman from Colorado.
    Mr. Mark Udall. Thank you, Mr. Chairman.
    I would like to just start by thanking the panel for your 
helpful testimony, and again, I want to thank Congressman 
Tancredo for his work on the TRAIL bill and also would 
associate myself with his remarks in regards to Mr. Jenkins, 
your comments and the need to put more people on the ground to 
enforce the existing laws that we have.
    If I might, I would like to direct this question, my 
initial question at Mr. Rey and Mr. Parkinson, and I want to 
compare my bill, H.R. 751, with Mr. Tancredo's H.R. 3247, and 
that has to do with how the money that is collected as fines 
could be used. Both bills say the money could be used to 
increase public awareness of agency rules. Both bills would 
allow the agencies to use the money for damage repair or 
improvement work.
    But under H.R. 3247, that would be limited to work that was 
made necessary by the violation that led to the fine, while 
under my approach, the money could be used for any necessary 
projects. Included in that, it would allow Agriculture or 
Interior to use the money that was left for, quote, 
``administrative, legal, and related expenses, including damage 
assessments, payments of rewards for information, and 
investigative costs.'' But under H.R. 3247, that wouldn't be 
permitted, and so any leftover fines would be returned to the 
general Treasury.
    I wonder, wouldn't it be better to broaden this part of 
H.R. 3247 so the agencies could direct this money into the 
enforcement efforts and into some of the needs that we have 
identified here? Mr. Rey and Mr. Parkinson, if you would be 
willing to comment on that, I would appreciate it.
    Mr. Parkinson. I will begin, Congressman Udall. I have not 
had the opportunity to review H.R. 751 myself, but let me take 
a crack at this.
    I think the approach that you described in H.R. 751 
certainly would give more flexibility and certainly more 
discretion to the agencies that were using the fine money. My, 
and this is tentative because I think we need to take a closer 
look at this, but even allowing fine money to be used 
specifically to repair damage caused by the specific offender 
is something of a unique approach in our criminal law 
enforcement and I think it requires some study.
    Normally, fine money would go into the Witness and Crime 
Victims Fund, so even departing slightly does raise some 
concerns, typically within the Justice Department and the 
administration because it is contrary to the typical way that 
fines are levied and then collected. So I suspect that that is 
one of the points that the folks were keeping in mind when they 
drafted this legislation, that we were taking a step that was 
unusual and it was a reasonable step and it also focused 
specific expenditure of money on violations that were tied to 
the offense.
    Mr. Mark Udall. Yes, I understand that rationale. It seems 
to me you could argue that at least one of the victims in this 
is the land itself, and in that context, it makes sense to have 
a fund, if you will, to repair the land.
    Mr. Rey. This is an area--
    Mr. Mark Udall. Mr. Rey?
    Mr. Rey. This is an area where I think we want to visit 
with the Justice Department and get back with you with some 
suggested language that may have a little bit more flexibility.
    One area where we would have some concerns, though, is a 
proposal to utilize the money to hire more law enforcement 
people. That raises the specter that the average user of the 
Federal lands deals with our law enforcement agents in a 
context where they suspect that our agents have an incentive to 
be over-aggressive enforcers, because they are utilizing the 
fines to retain additional agents to essentially bolster their 
enforcement efforts.
    We have some areas where we need to enhance our enforcement 
presence, there is no question about that, but I think that is 
better done through appropriated dollars and not with a direct 
feedback loop to the fines.
    Mr. Mark Udall. That is a very good point. There are, of 
course, administrative costs that I would hope we could 
consider being covered by the excess amount that might be left 
from the fine structure.
    I see my time is about to expire and I would want to ask 
the Chairman if I could include some additional questions, 
without objection, to the panel.
    Mr. Renzi. Absolutely.
    Mr. Mark Udall. And if I could, I would like to ask Mr. 
Smith and Mr. Jenkins if they would respond to my initial 
question, as succinctly as you can, seeing that the red light 
is on.
    Mr. Smith. In terms of your question, the other thing I 
just might add, in addition to being able to use fines 
collected to repair damage caused by individuals or groups, the 
legislation also provides that the money can be used for 
educational outreach in order to educate people in what is 
appropriate and what isn't. We would certainly hope that any 
final legislation would continue to have that ability because 
we think that is very important.
    Mr. Mark Udall. Yes. I think we would agree that education 
is a key part of trying to reduce the number of infractions 
and, therefore, the damage to public lands.
    Mr. Jenkins. My concern is that we get those law 
enforcement dollars, and if they can come through 
appropriations, I think that is great. You have another 
provision in your bill that would require some restitution by 
the offenders, I believe, or at least allow for that, and I 
think that may be another approach at getting to the 
restoration of the resource because the damage is really severe 
damage in a lot of cases and we really need a way to deal with 
that, and like maybe the previous person that sits here would 
say, not let the taxpayers be shouldered with that burden.
    Mr. Mark Udall. Yes. I think that is a very good point. Mr. 
Chairman, thank you for your indulgence.
    Mr. Renzi. I thank the gentleman from Colorado and 
cosponsor and move to the gentleman from New Mexico.
    Mr. Tom Udall. Thank you, Chairman Renzi, and thank you, 
members of the panel, for being with us today.
    Let me, first of all, applaud my cousin, Mr. Udall from 
Colorado and Mr. Tancredo, also from Colorado, for your piece 
of legislation and say that I don't think there is any doubt 
that fines for off-road vehicle violations are too low. I think 
we need to address this issue. I applaud you for attempting to 
get a trip on this problem.
    In the spirit of you saying suggestions, Mr. Tancredo, in 
terms of improvement of this legislation, I just have a couple 
of comments, and I hope they are taken in the spirit of 
possible improvements here.
    First of all, on a procedural, two procedural issues, 
apparently, the Department of Justice declined to send a 
witness to be before this panel today, and I really believe, 
since we are dealing with Department of Justice prosecutions, 
we are dealing with the Federal courts, much of this is overlap 
between this Committee and what the Department of Justice 
typically does. So I am disappointed that they couldn't find 
the time to send somebody. Apparently, there was an 
availability issue. I would hope that maybe we could get their 
input in this Committee on these specific provisions, and so 
that would be one suggestion.
    The second would be that the overlap in jurisdiction with 
other committees here in the House, the Judiciary Committee 
clearly has jurisdiction over these issues, also, because you 
are dealing with Federal prosecutors, Federal courts. The 
people that bring these cases, even if they are just citations, 
are all under the supervision of the Judiciary Committee and 
their oversight responsibilities. So I would urge you, if we 
not going to even get Justice to talk in this Committee, to 
urge the Judiciary Committee to assert some jurisdiction over 
this so that their input, the Judiciary input can be had.
    On the substantive part of this, two other comments, also, 
and, I think, a question for the panel here. I worry a lot 
about putting in the hands of an enforcement agency the 
authority to keep the money. Whenever you do that, you raise a 
whole host of issues. One of the big issues is, are you giving 
the enforcement people the incentive to issue more tickets even 
though they--more tickets or more prosecutions, trying to 
collect more fines and more money, even though it isn't 
necessary to carry out law enforcement responsibilities?
    I think this would be an unusual way to run Federal law 
enforcement. In fact, I think we have seen us move away from 
this in the forfeiture area. I think Chairman Hyde, when he was 
at Judiciary, sponsored a bill to take the forfeiture authority 
so that when Federal prosecutors move in to forfeit, they don't 
get to keep it because that would encourage them to use 
forfeiture maybe in inappropriate circumstances. So I just 
worry about the enforcing agency keeping the money because I 
think it pushes them to do things that maybe they wouldn't 
otherwise do.
    And then the final--and let me ask the question to the 
panel on that specific point. Is there anyone that sees a 
problem with this as a revenue-raising measure, that you are 
going to be putting a bind on this? I know agencies love to get 
the money. I mean, I expect all of you to say, oh, no, we want 
the money. This is a great idea. We are going to do a good job. 
But I am asking you, is there anybody on this panel that thinks 
that this is a bad idea? I don't need to hear that it is a good 
idea, because I assume you are all for it. But is there anybody 
that is on the other side on that issue?
    Mr. Smith. Well, Mr. Udall, initially when we started 
studying this problem, we did have some initial concerns about 
this concept. But the more that we looked at it and 
understanding that these agencies, these land agencies are 
under some very tight fiscal constraints, we just feel it is 
very important that money be devoted to educational outreach 
for appropriate behavior, and if someone does damage to these 
Federal lands, that those fines be used for restoration work.
    So I think the need is greater than the potential concern. 
I understand where you are coming from, but at the end of the 
day, we just felt that this is the appropriate way to deal with 
this problem.
    Mr. Rey. I think it is important to separate the 
enforcement from the use of the fine and that if the use of the 
fine is for purposes that are resource-related as opposed to 
additional enforcement activities, you eliminate the prospect 
that people are going to view the Federal law enforcement 
agencies as bounty hunters.
    We do have some experience with the Migratory Bird Treaty 
Act and the Lacey Act and the use of the fines there, and so 
far, that hasn't been a problem. But I think the reason it 
hasn't been a problem is that both of those statutes, as does 
this proposal, separates the enforcement from the fine.
    Mr. Tom Udall. Go ahead.
    Mr. Jenkins. We deal with this issue every day as 
individuals when we face traffic violations and things like 
that. It is always a concern about what is motivating the 
enforcement. It seems to me that the more directly you tie the 
use of those dollars to actual damage done, the less there is 
an incentive, or broader incentive, for law enforcement to be 
too picky on the type of penalties and type of tickets they are 
issuing.
    Mr. Tom Udall. Thank you very much.
    Mr. Renzi. I thank the gentleman.
    Mr. Tom Udall. I have additional questions, but I know I 
have exhausted on this particular round. Thank you, Mr. 
Chairman.
    Mr. Renzi. You are welcome. I am going to yield my time to 
the gentleman from Colorado, Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. I guess just a 
couple of very quick comments in response to my colleague from 
New Mexico.
    To a certain extent, the purpose of this legislation is to 
encourage the agencies to actually be more aggressive. So I 
don't mind the thought, the idea that there may be some 
connection between the imposition of a fine and a more 
aggressive posture.
    I think sometimes some of the agencies have actually--some 
people out in the field have simply ignored what was happening 
because they did not feel that there was really anything that 
was going to happen as a result of them even issuing a fine or 
a citation or something like that, and I think a lot of it has 
just been because it is confusing, because sometimes they 
didn't want to do it, because the restrictions of either their 
agency just having a Class A or Class B provision that, again, 
restricted their ability to be flexible, they decided not to do 
anything.
    So I am going to give them greater flexibility. I want 
them, therefore, to be more aggressive in actually enforcing 
the laws that are on the books. And as long as we confine the 
use of the money, as we have here, and has been stated by the 
panel, as long as we confine the use of the money for these 
specific things, I don't feel as though they are going to be 
doing it in order to improve their own economic welfare, but 
just to actually enforce the laws as they are on the books and 
maybe reduce the amount of violators as a result of it.
    Especially, I like the educational part. Education to me 
means, among other things, some big signage that tells you what 
the heck is going to happen to you if you do this stuff. You 
know, that is one thing I want people to know. That is part of 
this, as a deterrent, naturally, is to tell people, here are 
the possible fines and the possible ramifications for your 
actions here, which they may not know today. So I am hoping 
that that comes as a result of it.
    Procedurally, I am certainly supportive of trying to get 
Justice to provide a little more participation in this process 
as we go through it here. Whether we need another referral or 
not, or referral to another committee, I guess I say that for a 
long time, I have listened to people on this panel and people 
in the Congress talk about the need to do something quickly to 
address the problems that are so endemic in our national parks 
and in the forests of this land. I don't know whether--if we 
can get that kind of cooperation from Justice right now through 
this process here in this Committee, I am all for it. Beyond 
that, I think we have got a lot of input with them. I know the 
agencies have talked to them themselves.
    At any rate, I appreciate very much the panel being here 
and, Mr. Chairman, your willingness to provide some time in 
response.
    Mr. Renzi. Thank you. Reclaiming my time, I am going to 
turn the Committee over now to Mr. Tancredo to finish up and to 
chair the hearing. I know Mr. Inslee has questions. I think Mr. 
Udall has a couple more questions. So Mr. Tancredo, thank you.
    Mr. Tancredo. [Presiding.] Thank you, Mr. Chairman. The 
other comment that I just wanted to make is that it is clear to 
me that when you deal with these kinds of violations that occur 
on Federal lands, the vast majority of agency violations are 
handled through citations and they are handled--we should be 
really clear about what is going on. This citation is 
comparable to a ticket. The penalty on the citation is not a 
fine but a collateral paid by the recipient to authorize 
termination of the proceedings. This is under the Federal Rules 
of Criminal Procedure. So this is the way most of the cases 
occur.
    What I am concerned about is when you start giving more 
authority, is that authority going to be used well? My 
understanding within the Bureau of Land Management, which only 
has these Class A misdemeanors, is that what you have is a very 
aggressive approach by the agency, saying, oh, we are going to 
throw the book at these guys, and they are charging everybody 
with Class A misdemeanors and so they move forward along the 
process and they present their case. They don't actually do the 
charging, of course, but they want the people to be charged.
    They go up to the Justice Department and the local U.S. 
Attorney and say, we have got these guys. We want you to charge 
them with a Class A misdemeanor. And what ends up happening is 
the Justice Department declines the cases because the cases 
haven't been put together to prove all the elements of the 
crime and the enhanced intent provisions.
    And so we have had a record over in BLM, my understanding 
is, that it hasn't really worked very well with Class A. And so 
it is fine for all of us to talk about, you know, throw the 
book at the ORV guys and that is where we want to go, but the 
reality is that--and I used to do these cases when I was an 
Assistant United States Attorney and we would have 1 day a 
month and there would be all these misdemeanor cases before a 
magistrate and we didn't have very much time to deal with them 
because we were dealing with all these other felonies. And 
frequently, the law enforcement folks had very good intentions 
but they were not able to put the cases together, and so you 
had a lot of declinations at the last moment, which is not good 
for law enforcement, either.
    So what I think we need to think about in doing this is 
make sure that all levels of the law enforcement people in the 
Federal agencies have the kind of training, they work closely 
with the Department of Justice to make the cases that are 
really going to stick, because the agencies frequently view 
that they are being tough by wanting to charge something when 
they could get a lot better result with a lesser penalty, but 
they could actually get a conviction or, as I said earlier, the 
overwhelming majority are where people pay the collateral on 
these citations.
    So I don't know whether, Mr. Parkinson, you have been a 
former Federal prosecutor. I mean, this is a concern of mine. 
You work in supervising some of this law enforcement area. Is 
this a concern of yours? I mean, my understanding is we have 
got a lot of problems here in terms of the way these 
prosecutions proceed, and if we are going to give all this 
additional authority across the Federal Government, I think we 
are going to have to have a level of training to make sure that 
it is used wisely and that it is used effectively and that it 
is done in a cost efficient way.
    Mr. Parkinson. Congressman, you have made some very good 
points, sort of took me back to my former days as a prosecutor. 
I had the same experiences that you had. But what I think that 
does is it really highlights the need for this legislation.
    One of the reasons that, particularly with BLM, having only 
Class A authority means that they were compelled to either do 
nothing or go to the Class A misdemeanor route. By allowing 
them the lesser charge under a Class B misdemeanor does permit 
that sort of more reasonable approach to law enforcement.
    And, of course, as you said, training is a big component of 
that. I think some of the statements or some of the stuff that 
comes out from the field is lore, but I think it also has--
there is a lot of reality to what you have been hearing. I 
don't necessarily conclude that it is a failure of training as 
opposed to a lack of an appropriate penalty structure, which 
this legislation is designed specifically to address.
    Mr. Tom Udall. Mr. Parkinson, if we have, in fact, had some 
problems with BLM in their Class A, which you seem to admit 
there have been some, then giving them Class B, I would agree 
with you, is a good idea, and that is why I applauded earlier 
the objective that Mr. Tancredo is moving toward.
    But the Forest Service and the Park Service have not had 
Class A, so we are moving them into this whole new murky 
category where we have had problems at BLM. I would like some 
assurance that there is an understanding from the people that 
are supervising this, Mr. Rey for one, that it is going to be 
done in a way that it is successful and that the cases are 
presented in a way where there isn't this disconnect between 
Justice and the prosecutors and the people in the field and 
cases being dismissed and us not really getting enforcement 
done on these very important public lands and resource cases.
    I guess my question in a way is to Mr. Rey. You are 
stepping into an area with Class A with the Forest Service, 
anyway, which they have never done, and I think you may have 
problems unless there is some level of training and 
understanding that it isn't just the attitude of an agency 
saying, we are going to throw the book at them, and then 
Justice falls in line. It just doesn't work that way. Do you 
have any comment?
    Mr. Rey. Well, I think that is an area that we are going to 
be extremely mindful of. There is no benefit to be gained by 
bringing a case that can't be prosecuted, as you indicated 
earlier. The one advantage we have at this moment in history, 
should this legislation pass, is that our new Director of Law 
Enforcement, Ron Sprinkle, comes to us from the Department of 
the Interior, from the Park Service, and the Secret Service 
before that. So we are going to enter into this, should you 
give us this authority, with the benefit of their experience in 
how to use Class A misdemeanor enforcement wisely.
    Mr. Tom Udall. That is a welcome addition. Let me once 
again thank the panel for being here. I am finished with my 
questions at this point, and I thank Mr. Tancredo for his push 
to get tough on these ORVs. I don't think there is any doubt we 
need to do this. I just have questions as to exactly how we get 
there. Thank you very much.
    Mr. Tancredo. I understand and I appreciate the gentleman's 
concerns.
    Mr. Inslee, do you have questions?
    Mr. Inslee. Yes. I appreciate this effort, too, having seen 
the damage that has been caused out there. It is pretty amazing 
in my neck of the woods.
    But I have a question about this idea. If you accept the 
concept that we need to increase the sanction or perceived 
sanction for offenders in this manner, and if you accept the 
fact that the Federal judicial system is clogged to the gills 
and Federal prosecutors probably are going to put this on the 
lower level of their priority system if we go to more 
misdemeanor prosecutions, should we be focusing as much, or 
more, on raising the collateral forfeiture numbers, and 
hopefully we keep people out of the judicial system but still 
whack them harder and send a message to the user community in 
that regard?
    Is that an equal or better sort of strategy here, because I 
have a concern that if we do this, we are going to get 
referrals that just aren't going to go anywhere, particularly 
since now we have this willful standard, too, that I think is 
worthy of some discussion. That is just an open question.
    Mr. Parkinson. Let me start. I think this legislation is a 
good solution. I think we start from--one of the introductory 
comments put it this way. I will boil it down, too. There are 
two classes of offenders generally. This may be a slight 
oversimplification, but I think it is useful. There are those 
who are committing violations without really intending to 
commit violations, and then there are the egregious offenders 
who know exactly what they are doing and they are out there, 
often repeatedly, normally repeatedly, violating the public 
lands.
    It strikes me that when you start with that conceptual 
framework, there ought to be two law enforcement kinds of 
responses available. You ought to be able to have a Class B 
misdemeanor ability for those who are really not egregious 
offenders, but for those who are egregious offenders, you 
really ought to have a Class A kind of misdemeanor authority, 
which--and the other thing is that you ought to have a 
structure within these four bureaus, the three Interior bureaus 
and the Forest Service, that is at least consistent. Right now, 
we have four different statutory frameworks for the four 
bureaus, and the confusion for prosecutors and law enforcement 
agents who might be cross-designated, as well as for the 
courts, I think conceptually just doesn't make any sense 
whatsoever. So--
    Mr. Inslee. Could you address the issue of fines? Do we 
need to somehow induce agencies to look at their fine 
structure? If so, how do we go about that?
    Mr. Parkinson. Well, I think this helps do that. I think, 
yes, a short answer is do we need to have agencies look at 
their fine structures, I think the answer to that is yes. We 
should always be taking a look at things like that and 
analyzing how we better enforce the statutes and regulations 
that are on the books, and I think this is the kind of 
legislation that is a vehicle for generating that kind of 
analysis and discussion.
    Mr. Inslee. Mr. Rey, how do we encourage you or get you to 
look at the fine structure?
    Mr. Rey. We continue to review our fine structures, but I 
think what Mr. Parkinson said is right in terms of the 
conceptual framework that you approach this issue with. I don't 
know that we are going to accomplish any additional enforcement 
by raising the collateral for an unwitting violator. Whether we 
get him for $25 or $200, he is still an unwitting violator. It 
is the people who are repeated knowing violators that this bill 
will give us the better opportunity to deal with by giving the 
Forest Service, for the first time, a Class A authority.
    Mr. Smith. Mr. Inslee, we represent user groups. Quite 
often, there are a lot of bad things happening out there and a 
lot of destruction is occurring and we really want the agencies 
to have the means to go after those people that are 
deliberately destroying our public lands. And so that is why we 
like the fact that there is a two-tiered approach here with a 
misdemeanor A and B. Somehow, we have got to get on top of this 
problem, and we think this is one way to begin addressing some 
of that destruction that is occurring.
    Mr. Inslee. I noted in the definition, it added the 
characteristic of willful to the prosecutorial standard. Is 
that necessary or is that really what we are after? I noted a 
memo here that--it's been so long since I have been in law 
school--that said willful means you actually had knowledge that 
this would be illegal. Is that really the meaning of willful 
nowadays?
    Mr. Parkinson. Let me take the first crack. I don't believe 
you were here when I made the comments in my opening. I do 
think, one, it is not necessary, and two, we ought to amend the 
legislation to eliminate the willful requirement.
    Basically, what that does is it increases the burden of 
proof for the prosecutor. It requires the government to prove 
that the defendant specifically intended to violate the law, 
and I don't think that is necessary and I think it will impede 
the enforcement ability of the agencies.
    Mr. Inslee. Thank you. Thank you, Chairman.
    Mr. Tancredo. Thank you, Mr. Inslee, and thank you very 
much to the panel. I want to thank the witnesses on our second 
panel for their insights and members for their questions.
    The members may have some additional questions for the 
witnesses. We ask that you please respond to these in writing. 
The hearing record will be held open for 10 days for these 
responses.
    If there is no further business before the Subcommittee, I 
again thank the members of the Subcommittee and our witnesses. 
The Committee stands adjourned. Thank you very much.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

    [A letter submitted for the record by the U.S. Department 
of Justice on H.R. 3247 follows:]

[GRAPHIC] [TIFF OMITTED] T9967.001

[GRAPHIC] [TIFF OMITTED] T9967.002


</pre></body></html>
